<html>
<title> - IMPLEMENTATION OF THE CALIFORNIA PLAN FOR THE COLORADO RIVER</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





     IMPLEMENTATION OF THE CALIFORNIA PLAN FOR THE COLORADO RIVER

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 December 10, 2001 in Las Vegas, Nevada

                               __________

                           Serial No. 107-78

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

76-574              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                       Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
            ADAM SMITH, Washington, Ranking Democrat Member

 Richard W. Pombo, California        George Miller, California
George Radanovich, California        Peter A. DeFazio, Oregon
Greg Walden, Oregon,                 Calvin M. Dooley, California
  Vice Chairman                      Grace F. Napolitano, California
Michael K. Simpson, Idaho            James P. McGovern, Massachusetts
J.D. Hayworth, Arizona               Hilda L. Solis, California
C.L. ``Butch'' Otter, Idaho          Brad Carson, Oklahoma
Tom Osborne, Nebraska
Jeff Flake, Arizona

                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on December 10, 2001................................     1

Statement of Members:
    Bono, Hon. Mary, a Representative in Congress from the State 
      of California..............................................    43
        Prepared statement of....................................    43
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2
    Napolitano, Hon. Grace, a Representative in Congress from the 
      State of California........................................    42

Statement of Witnesses:
    Anderson, D. Larry, Director, Utah Division of Water 
      Resources..................................................     8
        Prepared statement of....................................     9
    Caan, George, Executive Director, Colorado River Commission 
      of Nevada..................................................    33
        Prepared statement of....................................    35
    Graff, Tom, Regional Director, Environmental Defense Fund, 
      Oakland California.........................................    29
        Prepared statement of....................................    31
    Raley, Hon. Bennett, Assistant Secretary for Water and 
      Science, U.S. Department of the Interior...................     3
        Prepared statement of....................................     5
    Stapleton, Maureen A., General Manager, San Diego County 
      Water Authority............................................    12
        Prepared statement of....................................    16
    Zimmerman, Gerald R., Executive Director, Colorado River 
      Board of California........................................    37
        Prepared statement of....................................    39

Additional materials supplied:
    Arizona Department of Water Resources, Letter submitted for 
      the record.................................................    58
    Colorado Department of Natural Resources, Letter submitted 
      for the record.............................................    60
    Imperial Irrigation District, Imperial, California, Statement 
      submitted for the record...................................    27
    Levy, Tom, General Manager-Chief Engineer, Coachella Valley 
      Water District, Coachella, California, Statement submitted 
      for the record.............................................    20
    Metropolitan Water District of Southern California, Statement 
      submitted for the record...................................    24
    New Mexico Interstate Stream Commission, Letter submitted for 
      the record.................................................    64
    Southern Nevada Water Authority, Letter submitted for the 
      record.....................................................    62
    Utah Department of Natural Resources, Letter submitted for 
      the record.................................................    66
    Wyoming State Engineer's Office, Letter submitted for the 
      record.....................................................    67

 
      IMPLEMENTATION OF THE CALIFORNIA PLAN FOR THE COLORADO RIVER

                              ----------                              


                       Monday, December 10, 2001

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                           Las Vegas, Nevada

                              ----------                              

    The Subcommittee met, pursuant to call, at 12:30 p.m., the 
Commission Chambers, Clark County Government Center located at 
500 South Grand Central Parkway, Las Vegas, Nevada, Hon. Ken 
Calvert [Chairman of the Subcommittee] presiding.

  STATEMENT OF HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert [presiding]. I want to thank all of our 
witnesses for coming long distances to be here in Las Vegas, 
Nevada today on a very important subject: The implementation of 
the California plan for the Colorado River.
    This past year has been an eventful one regarding the 
management of western water and power generation. It began with 
a near catastrophe in the California electricity market, which 
affected the entire power grid in the western United States. It 
will take years to deal with the aftershocks that emanated from 
the poor leadership and lack of realistic vision and consistent 
planning. To avoid a similar catastrophe with our water, the 
House Resources Committee passed H.R. 3208, the Western Water 
Security Enhancement Act. Our bill is the largest effort in the 
past decade to shore up our scarce water resources and 
associated water infrastructure while protecting our fragile 
ecosystem.
    We have learned a lot this past year. We recognize that the 
power system is improving throughout the West by better 
coordination and construction of new facilities and 
transmission lines. We have also learned that power facilities 
can be built and put online very quickly, in contrast to water 
infrastructure and development that may take more than a decade 
to come online. This is particularly troubling because if the 
West were to have a drought of even short duration, the impacts 
would be devastating to millions of families who depend upon a 
safe, reliable water system, in addition to the havoc it would 
create to our world renowned agricultural and industrial 
economies.
    There is no question that the water security of several 
states, particularly the States of California, Arizona and 
Nevada, are directly tied to the management and operation of 
the Colorado River. Last month, Chairman Hansen demonstrated 
that the Colorado River would become an issue this 
congressional session by amending H.R. 3208 to require 
California to live within its legal entitlement of 4.4 million 
acre feet of water by 2016.
    As many of you are aware, the last set of major 
congressional hearings on the Colorado River occurred in 1994. 
Since that time, many agreements have been reached by the 
Department of the Interior, and water users, to further manage 
the Colorado River efficiently and to the letter of the law. 
While we have made good progress defining that law, challenges 
certainly continue.
    I look forward today to the hearing and the diverse 
perspectives from our witnesses on issues surrounding the 
Colorado River.
    [The prepared statement of Mr. Calvert follows:]

 Statement of Hon. Ken Calvert, a Representative in Congress from the 
                          State of California

    This past year has been an eventful one regarding the management of 
western water and power generation. It started out with a near 
catastrophe in the California electricity market, which affected the 
entire power grid in the western united states. And ended with the 
House Resources Committee passing H.R. 3208, the ``Western Water 
Security Enhancement Act.'' The later proving to be the largest effort 
in the past decade to shore up our scarce water resources and 
associated water infrastructure, while protecting our fragile 
ecosystem.
    We have learned a lot this past year. We recognize that the power 
system is improving throughout the west by better coordination and 
construction of new facilities and transmission lines. We have also 
learned that power facilities can be built and on line very quickly, in 
contrast to new water infrastructure and development that may take more 
than a decade to come on line. This is particularly troubling because 
if the west were to have a drought, even of short duration, the impacts 
would be devastating to millions of families who depend upon a safe, 
reliable water system, in addition to the havoc it would create to our 
world renowned agricultural and industrial economies.
    There is no question that the water security of several states, 
particularly the states of California, Arizona and Nevada are directly 
tied to the management and operation of the Colorado River. Last month, 
Chairman Hansen assured that the Colorado River would become an issue 
this Congressional session by amending H.R. 3208 to require California 
to live within it's legal entitlement of 4.4 million acre feet of water 
by 2016. As many of you are aware, the last major Congressional 
hearings on the Colorado River occurred in 1994. Since that time many 
agreements have been reached by the Department of the Interior, and 
water users, to further manage the Colorado River efficiently, and to 
the letter of the law. While we have made good progress defining that 
law, challenges certainly continue.
    I look forward today to hear the diverse perspectives from our 
witnesses on issues surrounding the Colorado River.
                                 ______
                                 
    Mr. Calvert. We have a great panel in panel one and all our 
panels today to discuss the Colorado River. And our first 
panel, and our first witness, is the Honorable Bennett Raley, 
the Assistant Secretary of Water and Power, Department of 
Interior. With that, I recognize the gentleman. We are on a 5-
minute rule.
    We are not too strict about that, Mr. Raley, but you are 
recognized for your testimony.

 STATEMENT OF BENNETT RALEY, ASSISTANT SECRETARY FOR WATER AND 
                 POWER, DEPARTMENT OF INTERIOR

    Mr. Raley. Thank you, Mr. Chairman. Mr. Chairman, members 
of the Committee, I am Bennett Raley. I am the Assistant 
Secretary of the Interior for Water and Science. I am pleased 
to be here representing the Department of the Interior and to 
offer some background and perspective on ongoing Colorado River 
management actions.
    Mr. Chairman, with your consent, I have asked Bob Johnson, 
the Regional Director for the Bureau of Reclamation to sit with 
me in case he can use his greater knowledge than mine to assist 
the Subcommittee in answering any questions.
    Mr. Calvert. Without objection.
    Mr. Raley. I would also request that my testimony be 
submitted for the record.
    Mr. Calvert. Without objection, so ordered.
    Mr. Raley. Mr. Chairman, I first wish to thank you and the 
Committee. I was told by someone that the Department did not 
testify at field hearings. I said, ``Yes, we do.'' This is a 
matter of enormous importance; it is a matter of enormous and 
complicated history. And it is an honor to be here and for you 
to have had a field hearing out in the West where the Colorado 
River really means something, and I thank you.
    It is an honor for me personally because it was 34 years 
ago that I went to my first meetings, including with some of 
the people in the audience on water issues. I wish I could say 
I have learned enough in that time--I have not--to be able to 
offer solutions to all the problems. What I have gained, 
though, is a deep appreciation for the complex 
interrelationship of the interested parties in the Colorado 
River and how that working relationship, which has largely been 
developed since in the years leading to the 1922 Colorado River 
compact and from that date forward, is so important to what we 
do here today and what we will do for the future.
    I am not engaging in hyperbole when I say that I believe 
that subject matter we are here today to talk about is one that 
is a constitutional masterpiece. I say it because the issues of 
the Colorado River and its administration and its management 
are so deeply embedded and founded upon the Constitution, as is 
demonstrated by the fact that it starts with the Federal 
Government and the states and the structure that the Framers of 
the Constitution crafted, respecting their respective roles. I 
say it because the Colorado River embodies the treaty power 
with the Republic of Mexico. And I say it because we have seen 
the Constitution work throughout the history, since 1922, and 
it starts with the triumph of federalism.
    It starts with the 1922 compact where seven states came 
together to do what many thought was impossible and that is to 
settle their disputes over the river by agreement, by rough 
consensus, and in water matters consensus is always rough and 
never perfect. And the important thing was that the Federal 
Government respected that. Congress ratified the treaty--I am 
sorry, ratified the compact, and the next time that the Federal 
Government engaged was only after the lower basis had spent a 
considerable amount of time trying to resolve its own 
differences.
    And so in another proof that this is truly an issue of 
constitutional magnitude, Congress stepped in where the states 
could not agree in the Lower Basin to resolve disputes 
regarding the allocation of the Lower Basin's allocation. That 
was not necessary in the Upper Basin, because the states of the 
Upper Basin had done that themselves. The judicial branch 
stepped in to resolve disputes about what Congress had done.
    And I would not say that the intervention, with all due 
respect to Congress and to this Committee or to the acts of the 
executive branch or judicial branch, was the highlight or the 
acme of success in the Colorado River, because I would say that 
the success of the Colorado River and its structure is deeper 
than that. It is when the states and the stakeholders get 
together to resolve their differences and to make the wise 
choices that the allocation and management of this important 
resource requires. And that, I think, is the most important 
thing to remember about the fabric, the legal fabric, the 
judicial fabric, the history that we deal with so carefully 
today, and that is that the proper role of the Federal 
Government and the Colorado River is to act, in my own view, 
when our constituents cannot reach a conclusion that serves 
their interests and the national interests.
    And I have every hope that the activity of the past years 
where the states have come together in a series of events that 
is reminiscent of the dynamics that produced the 1922 compact, 
the states have come together to resolve yet another dispute, 
and if crafted, something that is mutually acceptable to all of 
them, that being the complex set of agreements, there is the 
California plan, the Quantification Settlement Agreement, the 
Secretary's implementation agreement. That was done largely 
through leadership and the hard work of the states and your 
constituents.
    We, as an Administration, want very much for that to 
succeed. We want to enable the states and the water users to 
cross the finish line with the agreements that they worked so 
hard to achieve to avoid a return to the battles before the 
Supreme Court, to avoid taking other actions that would affect 
and maybe even jeopardize the fabric of the river. We think 
that it is absolutely critical that we exhaust all 
opportunities and spare no effort to enable those locally 
driven, state-driven agreements to succeed. But if they do not, 
there is a role for the Federal Government, one for the 
judiciary, one for the executive branch and for Congress, 
clearly. And that is to take action where stakeholders cannot 
agree amongst themselves.
    And so we wait, Mr. Chairman. We wait in great hopes that 
the hard work of the past years will be brought to completion 
and that California, in working with its neighbor states, will 
be able to continue on a path of working out issues such as the 
treatment of surpluses under the law of river, in a coordinated 
and cooperative fashion as opposed to the more uncertain 
consequences when you proceed under the authority of one of the 
Federal branches of Government. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Raley follows:]

Statement of Bennett Raley , Assistant Secretary for Water and Science, 
                    U.S. Department of the Interior

    My name is Bennett Raley. I am Assistant Secretary of the Interior 
for Water and Science. I am pleased to be here representing the 
Department of the Interior and to offer some background and perspective 
on ongoing Colorado River management activities.
    The Secretary of the Interior (Secretary) is mandated under Federal 
law and the Supreme Court Decision and Decree in Arizona v. California 
to serve as water master for the Lower Colorado River. In that role the 
Department is responsible for administering the Colorado River water 
apportionments in the three states of California, Arizona and Nevada as 
well as the individual entitlements of users within those states. The 
Secretary also consults with all seven Colorado River Basin States 
<SUP>1</SUP> regarding issues that effect the entire Colorado River.
---------------------------------------------------------------------------
    \1\ The basin states are: Arizona, California, Colorado, Nevada, 
New Mexico, Utah, and Wyoming
---------------------------------------------------------------------------
Background
    The history of the Colorado River is filled with controversy and 
conflict dating back to the early 1920's, when the allocation of 
apportionments between the Upper and Lower Basins was developed. The 
need for the 1922 Colorado River Compact was created by California's 
early and significant development utilizing the river's water. The 
passage of the 1928 Boulder Canyon Project Act, which authorized the 
construction of Hoover Dam and the All American Canal in California and 
established the allocation of Lower Basin apportionments, occurred in 
spite of disagreement between Arizona and California. Congress 
allocated the water without the concurrence of the two states, giving 
California 4.4 million acre-feet of water, the largest apportionment of 
all seven Colorado River basin states. To address the concerns of the 
other states, Congress required that, before construction of Hoover Dam 
could be initiated, the state of California must adopt a law limiting 
its use to the allocated 4.4 million acre-feet (maf). In 1930, with the 
passage of the California Limitation Act, the California Legislature 
complied. A contract among the California entities, the ``Seven Party 
Agreement,'' was subsequently developed which allocated the 4.4 maf 
among water users within the State.
    During the 1940's and 50's California developed facilities allowing 
the utilization of more than its 4.4 maf apportionment and quickly 
began full use of its share of the river, and more. During that same 
time, Arizona began developing its own plans for utilization of its 2.8 
maf apportionment. However, California effectively prevented Arizona 
from implementing its plans, arguing that development and use of water 
from Colorado River tributaries within Arizona counted against its 
apportionment and limited significant additional development and 
diversion from the mainstream by Arizona.
    In 1951, Arizona filed suit in the U.S. Supreme Court, asking the 
court to clarify and support Arizona's apportionment. After 12 years of 
fact finding by a Special Master and arguments by the two states, the 
Supreme Court issued a decision in 1963 affirming Arizona's 2.8 maf 
apportionment. In 1964, the court further affirmed the decision by 
issuing a decree that, among other things, enjoined the Secretary from 
delivering water in amounts outside the decreed entitlements. 
Recognizing that time would be required for Arizona to develop its full 
use, the court allowed California to continue to use amounts greater 
than its apportionment as long as the other lower basin states were not 
utilizing their full entitlements, or if surplus water was determined 
to be available by the Secretary.
    Despite Arizona's victory in the Supreme Court, California was 
still able to extract a final concession from Arizona. In exchange for 
California's support of Congressional authorization for the Central 
Arizona Project (CAP), Arizona conceded to allow its CAP water to have 
a subservient priority to California water use during times of shortage 
on the Colorado River system. This was a significant concession since 
CAP water use represents more than half--approximately 1.5 maf of its 
2.8 maf--of Arizona's apportionment.

California's Internal Allocation
    It is also important to provide some background on the historical 
relationship among the Colorado River water users within California. 
The relationship that is internal to California's water allocation is 
defined by the Seven Party Agreement and related documents and is as 
complicated as the relationship among all the seven basin states. The 
documents that memorialized the Seven Party Agreement were executed in 
1931 by the California Colorado River water users and the Secretary. In 
summary, this agreement made the southern California urban area served 
by the Metropolitan Water District (MWD), the lowest priority recipient 
within the State and gave higher priority to agricultural use. Further, 
it provided for a tiered entitlement system among the agricultural 
users with priorities for unlimited use by three of four irrigation 
districts. In addition, Coachella Valley Water District (CVWD), has an 
entitlement for any unused water within a 3.85 maf irrigation limit. 
These relative priorities have placed both MWD and CVWD at odds with 
the other California contractors, particularly the Imperial Irrigation 
District (IID), the largest agricultural water user not only in 
California but in the entire river system.
    Following the Supreme Court Decree in 1964, California continued to 
utilize more than its entitlement, relying on the unused apportionment 
of other lower basin states as provided for in the Decree. In the early 
1990's, however, Arizona and Nevada began approaching their full 
entitlement and it became apparent that California would soon have to 
begin curtailing its use. The realization that California reductions 
would soon be required increased the tension among the California 
contractors as well as with the other basin states. Given the 
California entitlement system, most of the reductions in use, as much 
as 800,000 acre-feet, would have to be borne by urban users given their 
low priority. With the large population served in this region of the 
state along with anticipated continued significant growth, coupled with 
the limited water supplies from other sources, there was significant 
concern over California's ability to comply with the mandates of the 
Decree.
    California began pressing the other basin states and the Secretary 
to utilize another section of the Decree that allows for a declaration 
of surplus when hydrologic conditions permit. Such a declaration would 
essentially allow California's continued utilization of more than its 
entitlement, as much as 5.2 maf in some years. Because of the 
contentious history and California's central role in that conflict, the 
other basin states were less than enthusiastic about the proposal.
    By the mid 1990's, with the encouragement of the other basin states 
and the Secretary, the California parties acknowledged the need to 
limit their water use and to began serious efforts to develop a plan to 
achieve the reduction. Fortunately, wet conditions in the basin 
resulted in full reservoirs and an abundance of water, thereby allowing 
the Secretary to declare surpluses and to continue to meet all of 
California's water needs while this plan was being developed.
    I emphasize this history in my testimony because it underscores the 
contentious relationship that has existed between California and the 
other states as well as internally among the California water users. It 
also facilitates an understanding of the perspectives of the various 
parties. All of the other basin states have a long history of concern 
about California's use of the system and have a strong desire to 
protect their entitlements established under the Colorado River 
Compact, the Boulder Canyon Act, the Upper Colorado River Basin 
Compact, and the Supreme Court Decree.

Negotiated Solution Among California's Colorado River Water Users
    Efforts over the last five years have produced a negotiated 
settlement of how they will reduce their use of Colorado River water 
down to their 4.4 allocation. The California entities have developed a 
plan to do this in a manner that does not place the burden of reduction 
on the urban area. Agriculture to urban water transfers, on a willing 
buyer/willing seller basis, will allow the burden of reductions to be 
accommodated by irrigation water users. These transactions have been 
facilitated through a Quantification Settlement Agreement (QSA), which 
modifies the Seven Party Agreement by quantifying the entitlements of 
both Coachella Valley Water District (CVWD) and Imperial Irrigation 
District (IID) for a period of up to 75 years. The details of the 
settlement have been worked out and most of the documents are ready for 
execution.
    Recognizing California's significant efforts and the fact that the 
reductions will require some time to implement, the Secretary adopted a 
plan, based on a consensus proposal from the seven basin states, to 
allow California to continue to use surplus water to satisfy the needs 
of the southern California urban areas for a 15 year period. The 
Secretary formally adopted surplus guidelines for operation of the 
river system, with the signing of a final record of decision in 
January, 2001.

Deadlines for Final Implementation
    The Record of Decision for the Colorado River interim Surplus 
Guidelines includes specific benchmark dates and quantities by which 
California must reduce its use of Colorado River water over the next 15 
years. The first benchmark must be achieved in 2003. California's 
failure to meet the required benchmarks would result in a reduction of 
available surplus waters. The Guidelines anticipate that execution of 
the QSA (and its related documents) among IID, CVWD, MWD, and the San 
Diego County Water Authority by December 31, 2002 will allow the 
required benchmarks to be met. I can not emphasize enough the 
importance of these deadlines. While the other basin states and the 
Secretary are impressed with California's efforts, a ``trust but 
verify'' process has been established. Therefore, it is essential that 
these required actions take place in accordance with the QSA. If 
California does not meet the benchmark quantities, the recently 
developed trust will be significantly undermined and would likely 
result in a significant reduction in available Colorado River waters 
under the terms of the Surplus Guidelines. Two dry years (roughly 60 
percent of normal) in the Colorado River Basin have resulted in 
significantly decreased reservoir storage. Without demonstrated 
progress by California, the provisions of the surplus guidelines will 
require that California live without the plentiful surplus waters that 
have been available to this date.

Water Transfers and Impact on the Salton Sea
    The biggest issue affecting California's successful implementation 
of the water transfers associated with the plan, is achieving both 
state and Federal Endangered Species Act compliance. While significant 
progress has been made in this arena, addressing potential impacts that 
the water transfers will have on the Salton Sea has been difficult. 
Currently, IID is working with the Fish and Wildlife Service to prepare 
a Habitat Conservation Plan (HCP) to address the impacts that the water 
transfers may have on species both within the District and at the 
Salton Sea. An agreement in concept to address species within the 
District boundaries is nearly completed. However, reaching an agreement 
on measures to mitigate the effects of the water transfers on the 
Salton Sea has been much more difficult.
    IID and the other California parties (CVWD, MWD, and SDCWA) have 
sought both State and Federal legislation to provide relief from the 
Endangered Species Act and California Endangered Species Act for 
covered activities in the HCP area. Proposed Federal legislation (H.R. 
2764) was introduced August 2, 2001, to provide, among other things, 
$60 million in appropriations for Salton Sea mitigation, and directs 
the Fish and Wildlife Service to issue the necessary ``take'' permits 
for the water transfers. Similarly, legislation introduced in the 
California Assembly (A.B. 1561), to provide compliance with the 
California Endangered Species Act, has been prepared and may be 
considered in January 2002 .
    Another possible solution that the parties are exploring entails 
Reclamation entering into Section 7 consultation with the Fish and 
Wildlife Service on potential impacts of the water transfers on the 
Salton Sea. If that were to proceed, the scope of the HCP being 
prepared by IID, would be adjusted to address only covered activities 
within the IID service area. Further, the number of species to be 
addressed would be significantly reduced because it would be limited to 
Federally proposed or listed species. Two listed species, the Desert 
Pupfish and the Brown Pelican, have been identified at this time. The 
White Pelican, one of the most abundant fish-eating birds at the Salton 
Sea, would not be included in the Consultation. The discretionary 
Federal action being consulted on is the approval of the Implementation 
Agreement and the water transfers off the mainstem.
    The Department continues to work with all interested parties to 
continue to identify other potential solutions for resolving this very 
complex issue. We are committed to seeking acceptable and 
scientifically sound solutions whether using existing administrative 
process or legislative initiatives.

Conclusion
    The resulting framework (i.e, a California Plan coupled with 
Interim Surplus Guidelines) is truly historic. The negotiations have 
been intense and all the parties deserve praise for their ability to 
compromise and find workable solutions. The hurdles that have been 
overcome are much greater than the ones before us. To allow the process 
to fail now is untenable. We look forward to working with all of the 
involved parties to complete the process.
    That concludes my statement. I would be pleased to answer any 
questions.
                                 ______
                                 
    Mr. Calvert. Thank the gentleman for his testimony. Mr. 
Raley, you will be able to--I know you are a short time today. 
How much time do you have today to spend with us?
    Mr. Raley. Sir, this is important enough that I will make 
whatever time I can.
    Mr. Calvert. OK. Then I am going to recognize the second 
panel, then we can ask questions to everyone in relationship to 
the subject at hand.
    On our second panel, Larry Anderson, director of the Utah 
Division of Water Resources; Maureen A. Stapleton, the general 
manager of San Diego County Water Authority; Tom Graff, the 
regional director for the Environmental Defense Fund; George 
Caan, the executive director of the Colorado River Commission; 
and George R. Zimmerman, executive director of the Colorado 
River Board of California.
    And first I will recognize Mr. Anderson. We are still under 
the 5-minute rule. Try to stay with that as much as possible; 
we would appreciate it. You are recognized.

  STATEMENT OF D. LARRY ANDERSON, DIRECTOR, UTAH DIVISION OF 
                        WATER RESOURCES

    Mr. Anderson. Thank you very much. Appreciate the honor of 
being here today and to appear before this panel. Again, I am 
Larry Anderson. I am the director of the Utah Division of Water 
Resources. I serve as Utah's interstate streams commissioner, 
and I am Governor Lebiditz' representative on Colorado River 
issues.
    The Colorado River falls more than 12,000 feet as it flows 
from the Rocky Mountains to its outlet in the Gulf of 
California. Most of the flow of the Colorado River originates 
high in the mountains of the Upper Basin states of Colorado, 
New Mexico, Utah and Wyoming. The Colorado River is an 
important economic, recreational and environmental resource for 
the citizens of the Upper Basin. A significant portion of the 
Upper Basin states' economics revolves around, and are 
supported by, the Colorado River and its tributaries for power 
generation, irrigation, tourism, as well as for municipal and 
industrial water supply for many communities in the West. Thus, 
we are vitally concerned with the management of the Colorado 
River.
    Because of the critical role of water in the arid West, the 
Colorado River has been subject to extensive negotiations and 
litigation. This has resulted in the development of a complex 
set of Federal laws, compacts, court decisions, treaties, state 
laws and other agreements collectively known as the Law of the 
River.
    With the goal in mind of protecting the Upper Basin's 
current and future uses of the Colorado River, Utah joined with 
the other six Basin states in responding to a request by the 
Secretary of the Interior to develop a plan for which the 
short-term needs of the Lower Basin could be met during a 
transition period, while the lower division states, 
specifically California, develops and implements a plan to 
limit its use of Colorado River water to the amount allowed 
under the Law of the River. After intense discussions and 
negotiations among the seven Basin states, a consensus plan was 
developed. The plan resulted in the development of the Colorado 
River Interim Surplus Guidelines, as adopted by the Secretary 
of the Interior in his Record of Decision in January of 2001.
    The surplus guidelines allow the Secretary to provide water 
to meet municipal and industrial uses in the Lower Basin, 
particularly in California, during an interim period--2001-
2016--when the Colorado River reservoirs are projected to be 
relatively full. The Interim Surplus Guidelines allows 
California 15 years to implement conservation programs to 
reduce their annual demand for Colorado River water, from 
current uses of 5.2 million acre feet to its apportionment of 
4.4 million acre feet, a reduction of 800,000 acre feet of 
water annually. The California Water Plan for the Colorado 
River outlines the process California will follow to reduce its 
use to 4.4 million acre feet per year. During this 15-year 
timeframe, the Basin states have agreed to give California a 
greater assurance than hydrology may afford that surpluses will 
be declared and municipal and industrial water demands will be 
met during this transition period.
    The Upper Basin states support the consensus reached by the 
seven Basin states and expect the Federal Government and the 
Secretary of the Interior to continue to follow through on the 
commitments of all parties and be willing to enforce the 
provisions the Interim Surplus Guidelines. We, the Upper Basin 
states, think appropriate enforcement is critical to protecting 
our rights to the water allocated to us under the Law of the 
River.
    Of great interest and concern to the Upper Basin states is 
the success of the California 4.4 Plan for the Colorado River, 
which is an integral part of the Interim Surplus Guidelines 
Record of Decision. The plan outlines the steps California 
water users must take to meet the requirements of the Interim 
Guidelines. The Upper Basin states have supported, and tried to 
facilitate through the Interim Guidelines, California's 
development of a plan to get down to 4.4 million acre-feet of 
annual use. And we fully expect the plan to be finalized and in 
place by December of 2002 with all necessary agreements and 
compliance documents executed.
    The Quantification Settlement Agreement will be the 
overarching agreement that will make possible the California 
4.4 Plan. The Upper Basin states encourage Congress and the 
Federal agencies to provide support for and facilitate this 
agreements wherever appropriate, and if necessary, expedite any 
required Federal review process. H.R. 2764 is a good example of 
this facilitation, as it involves the interrelation issues of 
Colorado River water use in California and Salton Sea 
protection and restoration efforts. The Upper Basin states have 
contacted their congressional delegations to express support 
for H.R. 2764.
    In conclusion, the Upper Basin states support the 
implementation of the California 4.4 Plan for the Colorado 
River. Our support has been demonstrated in the close working 
relationship of all seven Basin states in the development of 
the Interim Surplus Guidelines. The California 4.4 Plan and the 
Quantification Settlement Agreement are integral parts of these 
guidelines, all due diligence needs to be exercised by 
Congress, Federal agencies, and the Colorado River Basin states 
to achieve the worthy goal of implementing this plan and the 
Quantification Settlement Agreement. Thank you very much.
    [The prepared statement of Mr. Anderson follows:]

Statement of D. Larry Anderson, Utah Commissioner, Upper Colorado River 
       Commission and Director, Utah Division of Water Resources

    The Colorado River falls more than 12,000 feet as it flows from the 
Rocky Mountains to its outlet in the Gulf of California. The river has 
a huge drainage basin that covers over 244,000 square miles. The seven 
Colorado River Basin states (Arizona, California, Colorado, Nevada, New 
Mexico, Utah, Wyoming) comprise about one-twelfth of the area of the 
continental United States. Despite the size of the watershed, the 
Colorado River ranks only sixth among the nation's rivers in volume of 
flow, with an average annual undepleted flow in excess of 17.5 million 
acre-feet (MAF) (15 MAF at Lee Ferry, the compact division point). 
Demands on the Colorado River are not limited to needs within the 
basin. In fact, more water is exported from the basin than from any 
other river in the country. The river provides municipal and industrial 
water for more than 24 million people living in the major metropolitan 
areas of Los Angeles, Phoenix, Las Vegas, Salt Lake City, Denver, 
Albuquerque, and hundreds of other small communities in the seven 
states. It also provides irrigation water to about 2.0 million acres of 
land. The river has over 60 MAF of storage capacity and 4,000 megawatts 
of hydroelectric generating capacity. The river is often described as 
the most regulated river in the world. Considering the river's 
importance to the basin states, Native American Indian Tribes and 
Mexico, the agreements that have been reached to divide the river's 
waters must be considered of the utmost importance.
    Most of the flow of the Colorado River originates high in the 
mountains of the Upper Basin states of Colorado, New Mexico, Utah and 
Wyoming. The Colorado River is an important economic, recreational, and 
environmental resource for the citizens of the Upper Colorado River 
Basin states. A significant portion of the economy the Upper Basin 
states revolves around and is supported by the use of the Colorado 
River and its tributaries for power generation, irrigation, and tourism 
as well as a municipal and industrial (M&I) water supply for many 
communities. Thus we are intimately involved and vitally concerned with 
the management of the Colorado River.
The Law Of The River
    Because of the critical role of water in the arid west, the 
Colorado River has been the subject of extensive negotiations and 
litigation. This has resulted in the development of a complex set of 
federal laws, compacts, court decisions, treaties, state laws and other 
agreements collectively known as ``The Law of the River''. The 
principal documents forming ``The Law of the River'' include:
    <bullet> The Colorado River Compact of 1922;
    <bullet> The Boulder Canyon Project Act of 1928;
    <bullet> The Mexican Treaty of 1944;
    <bullet> The Upper Colorado River Basin Compact of 1948;
    <bullet> The Colorado River Storage Project Act of 1956;
    <bullet> The U.S. Supreme Court's Arizona v. California decision 
and decree of 1964;
    <bullet> The Colorado River Basin Project Act of 1968;
    <bullet> Criteria for Coordinated Long-Range Operation of Colorado 
River Reservoirs of 1970;
    <bullet> Minute 242 of the International Boundary and Water 
Commission of 1973;
    <bullet> The Colorado River Basin Salinity Control Act of 1974;
    <bullet> The Grand Canyon Protection Act of 1992;
    <bullet> Colorado River Interim Surplus Guidelines of 2001
    In addition to these documents, several other federal and state 
laws impact the use of the river. Some are California's Self Limitation 
Act, the federal Endangered Species Act, National Environmental Policy 
Act, Clean Water Act, and the Wild and Scenic Rivers Act. Currently a 
key document is the yet to be completed California Colorado River 
Quantification Settlement Act which revises and quantifies the water 
use priorities in California of its Colorado River water allocation.

Interim Surplus Guidelines
    One of the most important issues in the Colorado River Basin today 
is the increasing municipal and industrial water demands in the Lower 
Division states of Arizona, California, and Nevada as compared to their 
available water supply allocated under AThe Law of the River''. Unless 
and until the Lower Division states take the necessary steps to live 
within their entitlement of 7.5 MAF per year, the Upper Basin states' 
ability to continue to develop and use their allocations could be 
impaired. With the goal in mind of protecting the Upper Basin states'' 
current and future uses of Colorado River water, Utah joined with the 
other six basin states in responding to a call from the Secretary of 
the Interior to develop a plan by which the short term needs of the 
Lower Division states could be met during a transition period. During 
this transition period the Lower Division states, specifically 
California, will implement a plan to limit use of Colorado River water 
to the amount allowed under ``The Law of the River''. After months of 
intense discussions and negotiations among the seven Colorado River 
Basin states, a consensus plan was developed. This consensus plan 
resulted in the ``Colorado River Interim Surplus Guidelines'' 
(Guidelines) as adopted in the Secretary of the Interior's Record of 
Decision (ROD) signed January 16, 2001.
    The Guidelines allow the Secretary to provide water to meet 
municipal and industrial (M&I) uses in the Lower Basin, particularly in 
California, during an interim period 2001- 2016 (while Upper Basin 
states Colorado River water demands are at less than their compact 
allocation). Water users in California have been using approximately 
5.2 MAF annually over the past 20 years, 800,000 acre-feet more each 
year than their basic apportionment as determined in Arizona v. 
California. Interim surplus guidelines allow California 15 years to 
implement conservation programs to reduce its demand for Colorado River 
water from 5.2 MAF to its compact allocation of 4.4 MAF. The California 
4.4 Plan for the Colorado River outlines the processes California will 
follow to reduce uses to 4.4 million acre-feet per year. During this 
15-year time frame, the basin states have agreed to give California a 
greater assurance that surpluses will be declared and M&I water demands 
will be met from reservoir storage during the transition period.
    These criteria are structured in such a way as to also provide 
protection to the other six basin states against the potential impacts 
of dry hydrology in the next 15 years. This protection will reduce the 
allowable California M&I water demands that can be met by surpluses as 
the reservoirs are lowered because of drought. The Upper Colorado River 
Basin states support the consensus reached by the states in the 
Guidelines. We expect the federal government and the Secretary of the 
Interior to continue to follow through on the commitments of all 
parties including enforcement of the provisions of the Interim Surplus 
Guidelines if California does not meet the benchmark reduction amounts 
set forth in the Guidelines and the ROD. It is critically important 
that California make the anticipated progress in reducing its annual 
Colorado River water use over the next 15 years. The Upper Basin states 
strongly believe appropriate enforcement is critical to protecting our 
allocations under AThe Law of the River''. It was on this basis the 
states agreed upon the provisions that were incorporated into the now 
promulgated Interim Surplus Guidelines.

California Water Use Plan for the Colorado River
    Of great interest and concern to all the Colorado River Basin 
states is the success of the California Water 4.4 Plan for the Colorado 
River, which is inextricably linked to the Interim Surplus Guidelines 
ROD. This plan outlines the necessary steps California water users must 
take to meet the requirements of the Interim Surplus Guidelines ROD. 
The Upper Basin states have supported, and tried to facilitate through 
the Guidelines, California's development of the plan to get down to 4.4 
million acre-feet of annual use. We fully expect this plan to be 
finalized and in place by December 31, 2002 with all necessary 
agreements and compliance documents executed. Absent meeting the 
December 2002 deadline for the finalization of the California 4.4 Water 
Plan and associated agreements including the Quantification Settlement 
Agreement, we expect the Secretary of the Interior to enforce the 
provisions of the Interim Surplus Guidelines and the ROD for suspension 
of the Guidelines.
    The Quantification Settlement Agreement will be the overarching 
agreement that will make possible the California Water 4.4 Plan for the 
Colorado River. While we have some concern over the conflicts the 4.4 
plan has generated within California, we fully anticipate and expect 
the water users in California to solve their problems as the viability 
of the Interim Surplus Guidelines hangs in the balance. The Upper Basin 
states encourage Congress and federal agencies to provide support for 
and facilitate these agreements wherever appropriate, and if necessary, 
expedite any required federal review processes.
    H.R. 2764 (Colorado River Quantification Settlement Facilitation 
Act) is a good example of this facilitation as it involves the inter-
related issues of Colorado River water use in California and Salton Sea 
protection and restoration efforts. The Upper Basin states have 
contacted their congressional delegations to express support of H.R. 
2764. While the Salton Sea has become an important wildlife habitat, it 
also should be recognized the Salton Sea is a man-made habitat 
dependent upon agricultural inefficiency and resultant return flow. Any 
water dedicated for use in the Salton Sea will have to come from 
existing water uses in the area, which may conflict with the transfer 
of agricultural water to municipal use as contemplated in the 
California Water Plan for the Colorado River and the ROD benchmarks 
established in the Interim Surplus Guidelines. Given the relationship 
between the Salton Sea and Colorado River water use under the 
California Plan, the impacts of these efforts should be carefully 
evaluated.

Conclusion
    In conclusion, the Upper Colorado River Basin states strongly 
support the implementation of the California Water Plan for the 
Colorado River. Our support has been demonstrated in the close working 
relationship of all seven of the Colorado River Basin states in the 
development of the Interim Surplus Guidelines. The California Water 
Plan for the Colorado River and the Quantification Settlement Agreement 
are inextricably linked to the Interim Surplus Guidelines. All due 
diligence should be exercised by Congress, Federal Agencies, and the 
Colorado River Basin states to achieve the worthy goal of implementing 
this plan and consummating the Quantification Settlement Agreement.
                                 ______
                                 
    Mr. Calvert. Thank you.
    Ms. Stapleton?

 STATEMENT OF MAUREEN A. STAPLETON, GENERAL MANAGER, SAN DIEGO 
                     COUNTY WATER AUTHORITY

    Ms. Stapleton. Thank you very much. Mr. Chairman and 
honorable members of the Committee--yes, there it goes. I have 
an overhead presentation, and hopefully it shows up on your 
screen. Terrific.
    I am Maureen Stapleton, the general manager of the San 
Diego Water Authority, and I am here to provide you a status 
and a progress report on the implementation of the Colorado 
River Plan on behalf of the major users by California of 
Colorado River water, which is Metropolitan Water District of 
southern California, Imperial Irrigation District, Coachella 
Valley Water District and the San Diego County Water Authority. 
I am here to represent four major water agencies with one 
purpose and one goal, and that purpose is the successful 
implementation of California's Colorado River Water Use Plan, 
and ultimately the execution and implementation of the 
Quantification Settlement Agreement.
    I would like to provide you a brief overview, and you have 
heard it from the previous speakers that basically California 
has been apportioned for 0.4 million acre feet, and in the past 
we have been using up to 5.2 million acre feet predominantly 
through surplus declarations and the unused apportionment of 
other Lower Basin states, specifically Nevada and Arizona. As 
those two States have grown, their water needs have grown, and 
they have used more and more of their entitlement. We are now 
at a point on the river where both Nevada and Arizona are using 
their apportionment, surplus water is no longer available, and 
California must reduce its use.
    As you have heard by the previous speakers that the 
majority of the 1990's were used to basically craft a carefully 
balanced agreement among the California water agencies and then 
ultimately with the other six Basin states and the Department 
of the Interior to develop California's Colorado River Water 
Use Plan. This plan is unique in its feature that it is 
literally endorsed by all seven Colorado River Basin states and 
the Department of the Interior. As part of that plan, it does 
include that the Bureau of Reclamation has implemented the 
Interim Surplus Guidelines, which are estimated to last for 15 
years to allow California a soft landing as it goes on its 
water diet. Next slide, please.
    You know that the Colorado River is apportioned by state, 
and here we have what the basic apportionment is and then the 
projected use for 2001. As you can see, as I indicated earlier, 
Nevada, Arizona are taking their full apportionment, and 
California is presently using approximately 5 million acre 
feet.
    The California plan specifically has three major components 
in that it really writes a new chapter in the history of the 
law of the Colorado River. What is unique about the California 
plan is that it resolves the internal California water 
agencies' conflicts, which some of them are literally decades 
old. Additionally, unlike others that you have seen before, 
this plan is an agreement among not only the California 
agencies but the other six Basin states and the Federal 
Government as well. And it really is a cooperative Basin-wide 
approach to how we use limited resources. Unlike the history on 
the Colorado River where you end up either with weapons of the 
court or many, many decades ago weapons against each other, 
this one is really a cooperative approach where all of us have 
agreed to how to deal with this limited resource issue.
    The key program elements are water transfers between 
Metropolitan Water District and Imperial Valley, a 200,000 
acre-foot water transfer between San Diego County Water 
Authority and Imperial Irrigation District and an additional 
100,000 with the Coachella Valley Water District. In addition 
to these substantive water transfers, there is also a canal 
lining program to capture the seepage, and that is 94,000 acre 
feet. Of that, 16,000 acre feet will go to settle the San Luis 
Rey Indian dispute, which has been for about 30 years now. And 
then in addition to that, there are a variety of storage and 
conjunctive use programs with the opportunity to capture 
additional water in wet years and then utilize in dry years.
    And then, as I said, as part of the California plan is the 
Interim Surplus Guidelines, which are anticipated to last until 
2016. They are basically a reoperation of Lake Mead to provide 
California with surplus water for the urban area while we 
implement these various conservation programs and projects.
    The Quantification Settlement itself is the settlement 
among the California agricultural agencies regarding limiting 
their use of Colorado River water. It is considered the major 
element of the California plan is really the blueprint on how 
California will reduce its take on the river, ultimately, and 
get back within its 4.4 million acre-foot entitlement. It 
includes the agreements on the Water Conservation and Transfer 
Programs, and it talks about moving approximately 500,000 acre 
feet of water conserved in Imperial Valley, moving to the urban 
agencies.
    When you look at how much have we invested in the program, 
unlike many large water projects in the western states, what 
you see on this slide is the substantial investment by local 
agencies, almost $6 billion over the 75 year-term of this 
agreement, to make this Colorado River Plan happen. The State 
of California has contributed an additional $235 million to 
provide funding for the canal lining and some of the 
conjunctive use programs. And as you know, we are requesting 
funding of the Federal Government to assist us in implementing 
this plan as well.
    But unlike many of the water projects where you see the 
most substantial amount of funding coming from the Federal and 
state government with a small portion coming from the local 
agencies, this is exactly opposite of that. It is where the 
local agencies, our local ratepayers, your local constituents 
are paying the largest chunk of this bill.
    We have done a lot of environmental review related to 
implementing the Colorado River Plan. There are five distinct 
areas of implementation that must be evaluated from an 
environmental compliance standpoint, and of the five, four of 
them we believe we are near or at agreement on. In river, 
changing the diversion point from Imperial Dam to Parker Dam 
has to be mitigated, and the four agencies are doing so. In 
Valley, the water conservation programs have an environmental 
impact in the Valley. The agencies again are responding and 
doing the appropriate mitigation.
    There are a number of specific projects which require 
mitigation as well, and, again, the four agencies are footing 
the bill for that mitigation. There is an issue about the 
service area of use and a question related to the growth issue, 
and, again, we are responding to that in our environmental 
documents.
    And then, finally, we have the Salton Sea issue, which I 
want to talk about a little further in detail. In 1998, U.S. 
Congress passed the Salton Sea Reclamation Act, and you 
basically directed that a reclamation plan and alternative be 
studied and funded, which looks at options to reduce and 
stabilize the overall salinity of the sea. As you know, you 
also directed that the feasibility study be back before 
Congress in January of 2000, but, unfortunately, those 
alternatives which were first vetted to you were found not 
viable.
    You will also remember that as part of the 1998 act, that 
the options were to assume up to a 500,000 acre-foot loss of ag 
drainage water, and that was to reflect, to a great extent, the 
anticipated water transfers, which California and Congress knew 
were coming. Specifically, the act precluded the use of 
additional Colorado River water directly to the Salton Sea. 
Again, we knew that that would be in conflict with the Law of 
the River and would create additional dynamics on the river, 
which we thought were not viable. And the revised feasibility 
study is due sometime in early to mid-2002.
    Why this time is so important is the four agencies that 
were working on the Colorado River Plan assumed that Congress 
would have in hand in January of 2000, you would have those 
options available to you and would make decisions prior to our 
drop dead date of December of 2002. Because the alternatives 
report went back to the drawing board, it has created the 
dynamic and the challenge that we are all dealing with today.
    As you know, the Salton Sea status is that it is 
deteriorating and will do so with or without the water 
transfers. Historically, the sea has increased about TDS parts 
per million in salinity each and every year. The temporal 
impacts of the water transfer are real. The sea is anticipated 
to turn super saline in sometime between 7 and 22 years. 
Sometimes that has been raised as high as 25 years. They are 
estimates, our best estimates by the scientists who have been 
working on the alternatives.
    The transfer itself will accelerate the salinity, the 
timing of the salinity or when the sea would turn hyper-saline 
by between one and 9 years. So it may be that in the most 
conservative approach we have an impact of about 15 years on 
the Salton Sea. It is important to note, however, that the 
water transfers are not causing the hyper-saline condition at 
the sea, but the Salton Sea and the species at the sea continue 
to remain in jeopardy with or without the transfer.
    We have worked on a variety of solutions and have sought 
them both administratively and legislatively. We are working 
very hard with the Department of Interior, the Bureau of 
Reclamation and the Fish and Wildlife Service to pursue an 
administrative solution to this challenge of the timing between 
the Salton Sea reclamation and the water transfer 
implementation.
    Additionally, the Hunter bill, as you are familiar with, 
H.R. 2764, was introduced to address the issue related to both 
funding and to providing regulatory certainty for the water 
transfers in the four water agencies. We are hoping that we 
will be able to make significant progress with the 
Administration in seeking as much of the solution to this 
conundrum as possible administratively, but we do believe that 
legislative effort may be necessary in the end. And then as you 
know, Chairman Calvert, the recent authorization of $60 million 
for Salton Sea mitigation was added to your H.R. 3208 just 
recently.
    We are also, on the California side, we are working with 
our resources agency, our Department of Fish and Game and our 
Department of Water Resources, as well as the environmental 
community to pursue an administrative solution. We have not 
only the challenge of the Endangered Species Act on the 
California side, but we also have California's Fully Protected 
Special Act, which comes into play on the Salton Sea issue as 
well. And we are hopeful that we will find an administrative, 
and it may be necessary on the fully protected side, it will be 
necessary, for us to seek legislative solution on that as well.
    Why is timely action needed? We have a deadline, and that 
deadline, as you have heard, there is an expectation that that 
deadline will be enforced. We must approve the plan for 
environmental compliance and ultimately execute the 
Quantification Settlement Agreement by December 31 of 2002. If 
we do not do so, California's Interim Surplus Guidelines are in 
jeopardy, and that jeopardy may lead to the potential loss of 
up to 700,000 acre feet of water for southern California. That 
is critical for all of California, it puts tremendous pressure 
on our limited resources in California, and it is--as the 
previous speakers have said, we must succeed, because the other 
option is not acceptable. Everyone agrees what we are trying to 
reach we are trying to reach successful implementation. The 
environmental community, the agriculture agencies, the urban 
agencies, we are working to try to reach this goal. There are 
serious ramifications if we do not reach the goal, and we are 
asking for your assistance to help assure that we get there.
    [The prepared statements of the San Diego County Water 
Authority, the Coachella Valley Water District, the 
Metropolitan Water District of Southern California, and the 
Imperial Irrigation District follow:]
    [Letters submitted for the record may be found at the end 
of the hearing.]

 Statement of Maureen A. Stapleton, General Manager, San Diego County 
                            Water Authority

    Mr. Chairman and Members of the Subcommittee, I am Maureen 
Stapleton, General Manager of the San Diego County Water Authority. I 
appreciate the opportunity to discuss the status and current progress 
in implementing California's Colorado River Water Use Plan (California 
Plan) on behalf of Southern California's major users of the Colorado 
River water. The Metropolitan Water District of Southern California 
(MWD), the Coachella Valley Water District (CVWD), Imperial Irrigation 
District (IID) and the San Diego County Water Authority (SDCWA), which 
I will refer to collectively as the ``Agencies --have progressed 
considerably in a unified and cooperative effort to ensure that 
California can live within its basic apportionment of Colorado River 
water.
    This California Plan progress report is being supplemented with 
additional Agencies'' statements on efforts that further serve to 
advance the California Plan and to meet the region's water supply and 
management needs. I respectively request that our collective written 
statements be made part of the hearing record. I am also including 
letters from representatives of the Colorado River basin states 
indicating both their support and concern for the implementation of the 
California Plan, and for Congressman Hunter's bill to facilitate its 
implementation, H.R. 2764. I request that these letters also be made 
part of the hearing record.
    The Colorado River is a vital water resource for Southern 
California, supporting a tremendous agricultural industry and more than 
17 million residents in one of the most economically productive regions 
of the world, including the cities of Los Angeles and San Diego. The 
state has a Colorado River basic annual apportionment of 4.4 million 
acre-feet per year. But for many years California has used over 5 
million acre-feet per year, relying on system surpluses and the 
apportioned but unused waters of Arizona and Nevada. California's 
reliance on water above its basic apportionment has long been of great 
concern to the other Colorado River Basin states and Mexico. In recent 
years, Arizona and Nevada have begun using nearly their full 
apportionments, and dry weather has diminished opportunities for system 
surpluses. California now has no alternative but to reduce its reliance 
on the river. The California Plan must be implemented to allow the 
state to transition to its basic apportionment of 4.4 million acre-feet 
per year. Unless California can eliminate its reliance on surplus, the 
Southern California urban coastal plain will face massive water 
shortages.
    The magnitude of our joint effort is extraordinary. We are reducing 
California's use of Colorado River water up to 800,000 acre-feet per 
year and must still continue to meet the region's water needs. This 
reduction is equivalent to the amount of water used annually by more 
than 5 million people in Southern California. Such a dramatic shift in 
resources is made possible through California Plan programs to conserve 
agricultural water and transfer it for urban uses, as well as 
groundwater storage and conjunctive use projects, and other water 
management programs. One of the most important components of the 
California Plan is the transfer of up to 200,000 acre-feet per year of 
water from the IID to SDCWA. This transfer will shore up the 
reliability of the region's water supply and help eliminate the 
dependence on surplus water to fill the Colorado River Aqueduct.

Progress to Date
    California is at a crucial juncture in terms of its use of Colorado 
River resources. The urgent need to reduce river use is well understood 
by the Agencies. They have responded with the California Plan, which 
was developed in consultation with and is supported by the other six 
Colorado River Basin states and the Department of the Interior. To 
date, the Agencies have successfully fast-tracked a wide range of 
complex legal agreements and environmental documents needed to 
implement the Plan. The October 1999 Key Terms For Quantification 
Settlement Among the State of California, IID, CVWD and MWD identified 
12 specific areas of conditions that need to be satisfied or waived 
prior to execution of the QSA and related documents. This includes the 
completion of the related environmental reviews, implementing interim 
surplus guidelines, implementing an inadvertent overrun and payback 
program relative to Colorado River water consumptive use, completing 
the SWRCB water transfer petition review process, and obtaining 
conserved water and a means to deliver the water for the San Luis Rey 
Indian Water Rights Settlement Act. The critical path for satisfaction 
of the conditions contains the environmental reviews and the subsequent 
SWRCB water transfer petition review process for the IID/SDCWA and the 
IID/CVWD/MWD option water transfers. The remaining conditions have been 
or are achievable within the required time frame for executing the QSA 
and related documents.
    The following is a list of the major accomplishments (including 
program and project implementation) to date that either relate to the 
California Plan or aid in their effectiveness and implementation:
    <bullet> December 1988 - IID/MWD Water Conservation and Use of 
Conserved Water and the associated 1989 Approval Agreement
    <bullet> April 1998 - Water Conservation and Transfer Agreement 
between IID and SDCWA
    <bullet> August 1998 - Water Exchange Agreement between SDCWA and 
MWD
    <bullet> September 1998 - State funding of $235 million for canal 
lining and conjunctive use elements of the California Colorado River 
Water Use Plan
    <bullet> October 1999 - Key Terms for Quantification Settlement 
Agreement Among the State of California, IID, CVWD and MWD (a 
prerequisite for Secretarial approval of transfers)
    <bullet> November 1999 - Secretary of the Interior Final Rule on 
Offstream Storage of Colorado River Water (Interstate Banking)
    <bullet> May 2000 - California Colorado River Water Use Plan (a 
prerequisite for Secretarial Colorado River Interim Surplus Guidelines)
    <bullet> December 2000 - Public release of the draft QSA by QSA 
parties
    <bullet> January 2001 - United States Fish & Wildlife Service 
Biological Opinion for interim Surplus Guidelines and river impacts of 
the QSA
    <bullet> January 2001 - Record of Decision Colorado River Interim 
Surplus Guidelines
    <bullet> May 2001 - Interim Surplus Guidelines Agreement between 
Arizona and MWD
    <bullet> Draft Interim Surplus Guidelines Agreement between 
Southern Nevada Water Authority and MWD
    <bullet> Quantification Settlement Agreement (QSA) and related 
environmental reviews and negotiations
    <bullet> Proposed Land Management, Crop Rotation, Water Supply 
Program between PVID and MWD
    <bullet> Draft Coachella Valley Water Management Plan
    <bullet> All American Canal and Coachella Canal lining projects 
environmental reviews, state funding and construction agreements
    <bullet> Drafts of the QSA and all related legal documents
    <bullet> MWD, in cooperation with others, has initiated 
development of potential River water storage and conjunctive use 
programs in:
        - Hayfield Valley
        - Chuckwalla Valley
        - Cadiz Valley
        - Lower Coachella Valley
        - Arizona
    The California water agencies have already spent millions of 
dollars toward formulating and securing approval of vital components of 
the California Plan, and will commit billions of dollars upon their 
implementation. In addition, the State of California has appropriated 
$235 million for canal lining and groundwater projects in furtherance 
of the California Plan. The Plan will be complemented by efforts to 
aggressively promote additional water conservation, water reuse, and 
local water supply development within the service area boundaries of 
each agency, which are discussed in the accompanying Agencies'' 
statements.

California Plan -- Implementation Timeline
    California was given the time necessary to implement the water 
conservation and transfers when the Secretary of Interior adopted the 
Interim Surplus Guidelines (Guidelines) in January 2001. The Guidelines 
are essentially rules for operating Lake Mead that allow California to 
receive additional surplus water for 15 years, or through 2016. During 
this interim period, California is expected to implement the necessary 
water transfers and other programs. California has already obtained 
great benefit from this action, receiving enough water this calendar 
year to maintain a full Colorado River Aqueduct for urban water use. 
The Guidelines are contingent, however, upon California's successful 
completion of certain deadlines and milestones.
    One critical deadline that must be met is the execution of the 
Quantification Settlement Agreement (QSA), the most important element 
of the California Plan, by December 31, 2002. The ability to execute 
the QSA by this deadline is the single most important issue facing us 
today. If the QSA is not executed by this deadline, the California Plan 
is at grave risk of unraveling. The Parties, in consultation with the 
Congress and the federal administration, have concluded that federal 
assistance - either through administrative actions or legislation - is 
needed to meet the QSA deadline.
    The QSA is an agreement designed to settle longstanding differences 
between the Agencies and implement core water transfers, including the 
Imperial/San Diego transfer. An integral part of the California Plan, 
the QSA must be completed to continue the Guidelines and allow the 
California Plan to go forward. The Guidelines specifically provide that 
unless the QSA is executed by December 31, 2002, the surplus provisions 
that benefit Southern California will be suspended until such time as 
California completes all required actions and complies with reductions 
in water use reflected in the Guidelines. This means that the 
additional surplus water provided under the Guidelines could be revoked 
as early as calendar year 2003, resulting in the loss of up to 700,000 
acre-feet per year of water to urban southern California.

Environmental Compliance Issues
    The Agencies have worked with the United States Fish and Wildlife 
Service and the Bureau of Reclamation to reach agreement on an on-river 
habitat and backwater mitigation plan to address the impacts of 
transferring 400,000 acre-feet of water per year. The impacts include 
changing the point of water diversion from the river and location of 
water use. Additionally, agreements will be in place for in-valley 
measures to mitigate impacts of the programs in the area where the 
water conservation will occur. Likewise, project-specific environmental 
reviews are addressing project impacts. This includes canal lining 
projects and water storage and conjunctive use programs.
    The remaining major federal issue regarding execution of the QSA is 
how to address potential environmental impacts of water transfers on 
the Salton Sea. The transfer of conserved water from the agricultural 
sector to the urban sector is essential in order to allow California to 
live within its 4.4 million acre-foot basic apportionment. However, 
water conservation in agricultural areas using Colorado River water, 
specifically the Imperial Irrigation District, may cause reduced 
agricultural drainage inflows into the Salton Sea.
    The Salton Sea and its fishery are man-made. The Salton Sea was 
created in 1905 when floodwaters of the Colorado River broke through 
diversion facilities along the river near the international boundary 
and carried the entire flow of the Colorado River through the Alamo 
canal into the below sea level Salton Sink until the breach was finally 
closed in 1907. As provided for by presidential executive orders in the 
1920's, the principal purpose of federal Salton Sink lands beneath 
elevation minus 220 feet since that time has been to serve as a 
drainage reservoir for the irrigation drainage waters from the 
Imperial, Coachella and Mexicali valleys. Without these drainage 
inflows, the Sea would evaporate and disappear. Freshwater fish species 
that were carried by the floodwaters died off as the salinity level of 
the Sea rose. Beginning in 1929, the California Department of Fish and 
Game created a salt water fishery by introducing various species of 
sport fish from the Gulf of California. Other exotic fish have been 
accidentally introduced to the Sea and have established populations.
    Today the Salton Sea is used by many species of migratory birds, 
including certain endangered species. Some of these birds rely on the 
fish in the Sea for their food source. Because of evaporation, the 
Sea's salinity has increased steadily over the years, and will continue 
to increase absent intervention. Now at a salinity of 44,000 parts per 
million, which is 25 percent saltier than the Pacific Ocean, the Salton 
Sea is approaching a ``hypersaline'' condition, in which the 
reproduction and survival of fish is jeopardized. It has been estimated 
that under current conditions, the Sea will reach a critical salinity 
level that is unable to support a fishery in 7 to 25 years.
    The causes of increasing salinity and environmental decline of the 
Salton Sea extend far beyond any effect of the transfers. Congress 
recognized this fact in the 1998 Salton Sea Reclamation Act (Public Law 
105-372) and directed that the transfers be included in the baseline 
condition of proposed Salton Sea reclamation options. The legislation 
acknowledged the transfers' importance to California, the other 
Colorado River Basin states, and Mexico.
    The 1998 reclamation law required a feasibility study, providing 
reclamation options, be submitted to Congress by January 1, 2000. This 
study has yet to be completed. The QSA, and its 2002 deadline for 
execution, is therefore ahead of the federal Salton Sea reclamation 
effort. Because of this, the Agencies must separately address 
environmental compliance related to the water transfers at the Salton 
Sea. This is difficult because the environmental impacts related to the 
Endangered Species Act are temporal in nature and not easily 
quantified. The best scientific analysis available has shown that the 
Salton Sea will reach the critical hypersaline environment 1 to 9 years 
earlier if the QSA transfers are implemented. Absent a comprehensive 
solution, the Salton Sea will soon reach a hypersaline level with or 
without the QSA water transfers.
    These matters are beyond the Agencies direct control to resolve. 
Accordingly, the Agencies have met extensively with Department of the 
Interior officials, including the Bureau of Reclamation and U.S. Fish 
and Wildlife Service, to determine how the QSA may be executed within 
the time frame required. We are very appreciative of the assistance we 
have received and the recognition that this is an urgent matter. In 
August, Congressman Hunter introduced the Colorado River Quantification 
Settlement Facilitation Act (H.R. 2764), to address the Salton Sea 
issues and other matters important to the California Plan. H.R. 2764 
provides $60 million for the first phase of Salton Sea reclamation, if 
Congress authorizes such reclamation before 2007. If reclamation were 
not authorized by that time, the funds would be used for habitat 
enhancement programs to protect endangered species that use the Salton 
Sea. The measure would also provide $53 million for small off-stream 
water management reservoirs to improve water conservation and river 
management, which could also provide improved water supply management 
options for Mexico. The Bureau of Reclamation estimated that last year 
about 300,000 acre-feet was lost from Colorado River reservoir storage 
because of the inability to re-regulate lower Colorado River flows. 
More recently, Congressman Calvert's H.R. 3208, the Western Water 
Security Enhancement Act, would authorize the appropriation of $60 
million for activities to address environmental impacts on the Salton 
Sea associated with implementation of the QSA.
    The Agencies have also pursued a similar course of action with 
California's state administration and legislature to address compliance 
with the California Endangered Species Act and a special provision of 
California law dealing with ``Fully Protected Species.'' The State of 
California places a high priority on implementing the California Plan 
and the associated QSA, and the Secretary for the California Resources 
Agency, Mary Nichols, is chairing a broad-based group working to solve 
the state issues. All of the parties recognize the urgency of getting a 
bill before the California legislature in January 2002.
Federal Administrative or Legislative Actions
    Mr. Chairman, the California Plan and its related agreements came 
into existence at the insistence of and with the welcome coordination 
of the federal government, expressed through the Secretary of the 
Interior and the Bureau of Reclamation, which have responsibility for 
managing the Colorado River. I believe there is a recognition, and 
rightfully so, that the federal government has a large stake in the 
California Plan and QSA and shares with us a responsibility to effect 
their implementation. Additionally, the Colorado River Basin states 
deserve a workable, credible, and specific plan to meet the objectives 
of the Interim Surplus Guidelines and the California Plan. The states 
deserve no less, as the rightful beneficiaries of a settlement of these 
historic entitlements. To accomplish this goal we should continue along 
the following course:
    First, Congress needs to address the reclamation of the Salton Sea 
as a separate matter consistent with the 1998 Salton Sea Reclamation 
Act. Each of the Agencies has passed a resolution in support of 
expeditiously addressing the reclamation of the Salton Sea. Congress 
through the 1998 Act assumed a decision responsibility for reclamation 
of the Salton Sea and established a federal role and responsibility for 
any reclamation actions. Reclamation of the Sea cannot and should not 
be the responsibility of the Agencies.
    Secondly, in order to address the outstanding issues relating to 
the Salton Sea which I have identified, there may be administrative and 
legislative options that need to be pursued to accomplish the 
objectives of the QSA. At the administrative level, we have been 
working closely with the Department of the Interior, the Bureau of 
Reclamation, and the Fish and Wildlife Service to expeditiously address 
the remaining issues. At the legislative level, Congressman Hunter 
introduced H.R. 2764 to address the Salton Sea issues and other matters 
important to the California Plan, and Congressman Calvert has included 
in H.R. 3208 substantial funding to deal with Salton Sea environmental 
issues. Depending upon the administrative solutions available, 
complementary action by Congress may be needed as an integral part of 
the solution and in order to meet the deadlines we face.
    In concluding, I would like to restate the Agencies'' commitment to 
executing the QSA, maintaining the Colorado River Interim Surplus 
Guidelines for the full interim period, and implementing the California 
Plan to allow California to live within its basic apportionment.
    And finally, we would like to express our appreciation for the 
opportunity to appear before the Committee today to discuss these very 
important matters. We look forward to addressing any questions you may 
have.
                                 ______
                                 

 Statement of Tom Levy, General Manager and Chief Engineer, Coachella 
                         Valley Water District

Introduction and Background
    My name is Tom Levy. I am general manager-chief engineer of the 
Coachella Valley Water District.
    The Coachella Valley Water District provides a variety of water-
related services throughout a 1,000-square-mile service area in the 
southeastern California desert. It is primarily located in that portion 
of Riverside County commonly referred to as the greater Palm Springs 
area but it also provides domestic water service and sanitation in a 
portion of Imperial County along the Salton Sea and its boundaries 
extend into a small part of San Diego County.
    The district was founded under the County Water District Act of the 
State of California in 1918. It acquired regional flood control 
responsibilities when it absorbed the Coachella Valley Stormwater 
District in the late 1930s. In addition to stormwater protection, the 
district provides irrigation water from the Colorado River to about 
70,000 acres of farmland. It provides domestic water to nearly 83,000 
homes and businesses in the cities and communities of Cathedral City, 
Rancho Mirage, Palm Desert, Indian Wells, La Quinta, Thermal, Mecca, 
Oasis, Desert Shores, Salton City, North Shore, Bombay Beach and 
surrounding areas. Wastewater collected from nearly 72,000 sanitation 
hookups flows to six reclamation plants where most is converted to high 
quality water for reuse for golf course and greenbelt irrigation. The 
district also operates groundwater recharge facilities for much of 
Coachella Valley.
    While all of Southern California is a desert, with an average 
annual rainfall of only about 12 inches on the coastal plain, Coachella 
Valley is especially arid with only about 3 inches of precipitation 
annually. There are no major rivers flowing through the area so most of 
Southern California's water supply must be imported from great 
distances - the eastern Sierra, Northern California and the Colorado 
River. Coachella Valley Water District has contracted to receive water 
from both Northern California and the Colorado River.
    All domestic water the district delivers is pumped from a large 
groundwater basin, also in a state of overdraft. It currently is 
replenished by natural flows of snowmelt from surrounding mountains and 
by imported water from the Colorado River through a contract with the 
Bureau of Reclamation and from the California State Water Project.

Supply Challenges
    Colorado River Supply: California's Colorado River reliable supply 
is limited by the U.S. Supreme Court and by the California Limitation 
Act to 4.4 million acre-feet per year. Accompanying charts show the 
division of the river's waters between the states and between agencies 
within California. Still, during the last 10 years the state has used 
more than S million acre-feet annually. The loss of 600,000 to 800,000 
acre-feet of water annually to Southern California when California is 
limited by ``normal'' Colorado River flows carries with it significant 
adverse economic impacts unless enough time is granted to implement 
essential reductions in use and development of alternative sources.

[GRAPHIC] [TIFF OMITTED] T6574.012

    Now that Arizona has developed uses for its full entitlement, 
excess water for California is a luxury of the past. Realizing this, 
and with prodding from the other basin states and the Secretary of the 
Interior, California and its Colorado River water purveyors have been 
working for several years on a plan to ultimately reduce the state's 
demand on the river to its basic entitlement. While negotiations 
continue to resolve individual agency supply concerns, enough progress 
had been made by the beginning of this year to earn the Secretary of 
the Interior's concurrence on Interim Supply Guidelines which allow the 
state 15 years to orderly reduce its demand on the river to its basic 
entitlement. These guidelines are conditional on the Quantification 
Settlement Agreement being operational by December 31, 2002. Arizona 
and Metropolitan Water District of Southern California MWD) have worked 
out an agreement where that state would allow California surplus 
supplies in exchange for MWD protecting Arizona from shortage impacts. 
Currently, progress is being made concerning environmental impact 
documents for the
    Quantification Settlement Agreement. All seven Colorado River Basin 
states support implementation of the California Plan to significantly 
reduce the state's Colorado River consumption.
    Unless the Quantification Settlement Agreement is executed by 
December 31, 2002, urban Southern California could lose up to 750,000 
acre-feet per year of Colorado River water, resulting in a water crisis 
with severe economic impacts. To meet this schedule, all environmental 
compliance actions must first be secured. This requires congressional 
action because the Fish and Wildlife Service is unable to grant 
necessary permits before mitigation is authorized and funded. State 
legislation is necessary to address the California Endangered Species 
Act and Fully Protected Species law.
    The Interim Surplus Guidelines state that ``In the event that the 
California contractors and the Secretary have not executed such 
agreements (Quantification Settlement Agreement and related agreements) 
by December 31, 2002, the interim surplus determinations under Sections 
2(B)(1) and 2(B)(2) of these Guidelines will be suspended and will 
instead be based upon the 70R Strategy...'' The 70R Strategy is more 
conservative than the criteria that was in place prior to the Interim 
Surplus Guidelines and would result in a ``normal'' determination, 
i.e., no surplus water, and California would be limited to 4.4 million 
acre-feet for 2001 and 2002. This would have resulted in a 30 percent 
reduction in the water supply to coastal southern California if it 
would have occurred this year. The shortage would move out from coastal 
southern California and impact the rest of the state. The economic 
impacts would be significant and would make the power crisis look 
insignificant.
    Prior to signing the Interim Surplus Guidelines, the Secretary had 
tremendous flexibility in declaring surpluses on the River. However, by 
agreeing to the Interim Surplus Guidelines, the Secretary has limited 
her discretion on surpluses and she cannot change the criteria without 
formal rule making and environmental review. We are running out of time 
to accomplish any changes prior to the December 31, 2002, deadline 
assuming that the other basin states would agree to a delay or changes 
in the Interim Surplus Guidelines. Since they agreed to the Interim 
Surplus Guidelines, the runoff on the Colorado River has been below 
normal and the level in the reservoirs has dropped several million acre 
feet. This makes their agreement less likely.
    Some may argue that we can meet the coastal southern California 
water needs through other programs with the California Colorado River 
agricultural agencies such as the recently announced Palo Verde 
Irrigation District/ MWD land fallowing program and the purchase of 
16,000 acres of land in the Palo Verde valley by MWD. However, under 
the Law of the River, Colorado River water flows through the priority 
system with the agencies in between the Palo Verde Irrigation District 
and MWD having the right to use that water without any charge. This 
results in the lack of reliability of those supplies.
    If California is limited to 4.4 million acre-feet from the Colorado 
River, will the California Colorado River agriculture agencies continue 
to get 3.85 million acre-feet or will the Governor or the Secretary 
take action to attempt to take water from them? How will the Salton Sea 
be addressed if immediate action is necessary to save the California 
economy?

[GRAPHIC] [TIFF OMITTED] T6574.013

    Without legislative action this year, the Quantification Settlement 
Agreement, Colorado River surplus guidelines, the seven state 
commitments and the ability of California to meet is obligations to 
stay within its Colorado River allocation would all be negated.
    This concern is voiced by other Colorado River Basin states in 
attached letters from Wyoming, Colorado and Nevada.
    The sought federal legislation would also authorize development of 
off-stream water management reservoirs near the All-American Canal to 
enhance off-stream storage capability. It would also enhance the 
ability of Mexico to make efficient use of its Colorado River 
entitlement and would assist the development of a reliable water supply 
for the San Luis Rey Indian Water Rights Settlement.
    The Salton Sea was created shortly after the turn of the century 
when man accidentally diverted the entire flow of the Colorado River 
into the Salton Sink for two years. It has been maintained since by 
Colorado River water diverted to irrigate the Imperial and Coachella 
Valleys in California and the Mexicali Valley in Mexico.
    Today the sea is a primary resting place for migratory birds, 
including some endangered species.
    With a surface elevation nearly 220 feet below sea level, the only 
way water leaves the Salton Sea is through evaporation which leaves the 
salts behind making today's sea saltier than ocean water. There has 
been much work done locally and in Washington toward saving the Salton 
Sea but this must remain a separate issue. We are members of the Salton 
Sea Authority and are committed to the restoration of the Salton Sea.
    Originally, Congress was to have a plan for the restoration of the 
Salton Sea ahead of the water transfers and it would have addressed the 
restoration before the approval of the water transfers occurred. 
Unfortunately, the plan that was submitted to Congress in January 2000 
failed to conform to the direction provided in the 1998 Salton Sea 
Restoration Act and was rejected. The Salton Sea Authority and the 
Bureau of Reclamation are developing a feasibility report which will 
propose a plan to restore the Sea. It appears the all viable solutions 
will require some form of fallowing. The Salton Sea is becoming more 
saline each year and will change to the point that the fisheries will 
cease to exist and the birds will leave. Without the intervention of 
man, the Sea will change from what we now know without any transfers. 
The impact of the transfers on the Sea is to reduce the water flowing 
into it. Studies by the Bureau of Reclamation show the Quantification 
Settlement Agreement transfers to accelerate the demise of the Sea from 
one to eight years. The Quantification Settlement Agreement parties 
assumed that the necessary state and federal permits for endangered 
species at the Salton Sea would have been addressed by the restoration 
plan and therefore, did not include the cost of mitigation in the 
settlement. How to address the impacts of temporal impacts is not clear 
in the endangered species legislation. Requiring the water transfers to 
fully mitigate for the maximum possible impacts on the Sea would cost 
between $500 million and $1 billion and would kill the Quantification 
Settlement Agreement. Habitat such as wetlands adjacent to the sea can 
be created to address the endangered species needs resulting from 
Colorado River water conservation and transfer programs which will 
reduce inflow to the sea.

[GRAPHIC] [TIFF OMITTED] T6574.014

    Groundwater supply: The Coachella Valley groundwater basin has a 
large supply of water, however, it is in a state of overdraft. We are 
currently in the public review stages of a valley-wide water management 
plan which will resolve the overdraft. The water supply to allow us to 
eliminate the overdraft is provided through the water we obtain under 
the Quantification Settlement Agreement (See CVWD Water Budget). We 
obtained a total supply for the lower Coachella Valley of 456,000 acre-
feet and 50,000 acre-feet for the upper Coachella Valley through the 
transfer of 100,000 acre-feet of State Water Project entitlement from 
MWD with MWD retaining the rights to receive the water in dry years. 
Without this supply, we will become a buyer of water to prevent the 
economic impacts to the valley of continuing the overdraft.
    The plan requires implementation of a variety of conservation, 
conjunctive use, importation and reclamation activities designed to 
reduce use without damaging the valley's lifestyle or joint economic 
bases of tourism and agriculture.
    It involves more use of Colorado River water to reduce the demand 
on the groundwater basin and increased availability of state project 
water for exchange to increase the availability of water for 
groundwater recharge. These issues are closely tied to current 
negotiations concerning the Colorado River Quantification Settlement 
Agreement.

Measures and Assistance Needed
    Probably the most important issue facing Southern California water 
users which requires state and federal participation is the Colorado 
River Quantification Settlement Agreement. To go forward, we need 
congressional help in the form of $60 million for enhancement programs 
to protect endangered species habitat around the sea and direction to 
accept and implement a habitat conservation plan for Imperial Valley 
and the Salton Sea.
    State legislation is needed to address the California Endangered 
Species Act and Fully Protected Species law.
    Restoration of the Salton Sea is an issue that Congress and the 
California legislature need to address. However, the schedule for this 
important action is behind the implementation of the Quantification 
Settlement Agreement and should not result in failure of the 
Quantification Settlement Agreement and the resolution devastating 
economic impacts on California.
Concluding Remarks
    Thank you for allowing us to voice our concerns about the 
California's water future. The importance to passage of Congressman 
Hunter's H.R. 2764 to help us facilitate the successful implementation 
of the Quantitative Settlement Agreement cannot be overemphasized.
    If you desire additional information about Coachella Valley Water 
District or some of the issues I have mentioned here we would welcome a 
visit to our web site: www.cvwd.org
                                 ______
                                 

  Statement of The Metropolitan Water District of Southern California

    The Metropolitan Water District of Southern California 
(Metropolitan) is actively engaged with Coachella Valley Water District 
(CVWD), Imperial Irrigation District (IID), and San Diego County Water 
Authority (SDCWA) (collectively, the Agencies) in the implementation of 
California's Colorado River Water Use Plan and the associated 
Quantification Settlement Agreement (QSA) to reduce California's 
dependency on Colorado River water. Metropolitan, in coordination with 
others, is undertaking the development of voluntary cooperative water 
conservation/transfers, water storage and conjunctive use programs, 
other cooperative water supply programs, water exchanges, dry-year 
supply programs, and interim surplus guidelines'' agreements as part of 
the effort to reduce the state of California's Colorado River water use 
to its basic annual apportionment of 4.4 million acre-feet, a reduction 
of about 800,000 acre-feet per year from its highest use of about 5.2 
million acre-feet per year in the past ten years.
    In addition to these efforts, Metropolitan has undertaken major 
investments to lessen its demand for imported water, meet future 
demands, and improve supply water quality. This is being done through 
significant investments in increased water conservation, recycling, 
local projects, groundwater recovery programs, in-service area storage 
and conjunctive use projects, watershed management, source-water 
quality protection, and improved desalting and other water treatment 
technologies. Coordination of these efforts is carried out through 
Metropolitan's Integrated Resources Plan and the Plan's strategies of 
supply reliability and affordability, and water quality enhancement and 
protection.
    This statement complements the joint California Plan progress 
report of the Agencies submitted by Maureen Stapleton, General Manager, 
San Diego County Water Authority, to the Subcommittee, by providing a 
brief overview of Metropolitan-specific efforts to increase its water 
supply reliability, diversify its sources of supply, reduce the 
region's reliance on imported water, and improve the effective use of 
local water supplies.
    Metropolitan is a public agency established under a legislative act 
in 1928 to secure imported water supplies for its member agencies. 
Metropolitan's 5,200-square mile service area stretches some 200 miles 
along the coastal plain of southern California and encompasses parts of 
Los Angeles, Orange, Riverside, San Bernardino, San Diego, and Ventura 
Counties. More than 17 million people reside within Metropolitan'' 
service area.
    Today, Metropolitan provides over 50 percent of the water used 
within its service area. Metropolitan receives water from two principal 
sources, the Colorado River, via the Colorado River Aqueduct, and the 
State Water Project (northern California water), via the California 
Aqueduct. To further help meet the water needs of member agencies, 
Metropolitan assists in the development and effective use of local 
resources, beginning in the late 1950s with cooperative groundwater 
recharge programs and evolving over time to member agency partnerships 
for water conservation, water recycling, groundwater recovery, and 
water storage and conjunctive use programs.
    The 444-mile State Water Project (SWP) is owned by the State of 
California and operated by the California Department of Water 
Resources. The SWP transports water released from Oroville Dam and 
flows that have traveled into the San Francisco Bay/Sacramento-San 
Joaquin Delta Estuary (Bay/Delta), south via the California Aqueduct to 
four delivery points near the northern and eastern boundaries of 
Metropolitan. Metropolitan is one of 29 agencies that have contracts 
for water service with the California Department of Water Resources.
    Metropolitan's SWP contract is for a total of 2,011,500 acre-feet 
per year. The contracted amount was increased in 1964 from 1,500,000 
acre-feet per year principally to offset the impending loss of a 
portion of Metropolitan's Colorado River supply resulting from the 1963 
United States Supreme Court decision in Arizona v. California. 
Improvement of the supply reliability of the SWP and the development of 
comprehensive long-term solutions to the environmental problems in the 
Bay/Delta system are the focus of the CALFED process and legislation.
    Under ``The Law of the River'', California is apportioned the use 
of 4.4 million acre-feet from the Colorado River each year plus one-
half of any surplus water that may be available for use in the Lower 
Basin. Metropolitan has a legal entitlement to Colorado River water 
under a permanent service contract with the Secretary of the Interior.
    The Colorado River Aqueduct, which is owned and operated by 
Metropolitan, transports water from the Colorado River approximately 
242 miles to its terminus at Lake Mathews in Riverside County. It has 
the capability to divert about 1.3 million acre-feet per year. Under 
the priority system that governs the distribution of Colorado River 
water made available to California, Metropolitan holds the fourth 
priority right to 550,000 acre-feet per year. This is the last priority 
within California's annual basic apportionment of 4.4 million acre-
feet. Metropolitan holds the fifth priority right to 662,000 acre-feet 
of water per year, which is in excess of California's annual basic 
apportionment. Historically, Metropolitan has been able to take 
advantage of its fifth priority right entitlement as a result of the 
availability of surplus water and Colorado River water apportioned but 
unused by Arizona and Nevada.
    Over the last ten years, California entities have diverted 4.5 to 
5.2 million acre-feet annually from the Colorado River, relying on 
system surpluses and apportioned but unused waters of the other Lower 
Basin states that will not be available in the future. The Colorado 
River Board of California, in consultation with the California 
Department of Water Resources, Metropolitan, CVWD, IID, Palo Verde 
Irrigation District (PVID), SDCWA, the City of Los Angeles, and others, 
has developed California's Colorado River Water Use Plan (California 
Plan). The California Plan provides a framework and timetable for the 
reduction of California's use of Colorado River water to its annual 
basic apportionment through reallocation of water supplies among the 
involved water agencies (voluntary water conservation/transfers), 
cooperative water storage and conjunctive use programs, and by other 
means.
    If no new agreements were executed and no surplus water were 
available, Metropolitan's annual supply of Colorado River water would 
have a shortfall of about 600,000 acre-feet per year that can and 
should be avoided. The statewide economic and environmental 
consequences of this shortfall would simply not be acceptable. There is 
no substitute for success in implementing a plan for reducing 
California's dependency on Colorado River water that is acceptable to 
the Secretary of the Interior and the other Basin states.
    Multi-billion dollar investments and contributions that have been 
and are being made by Metropolitan or by Metropolitan in cooperation 
with others that directly reduce California's dependence on Colorado 
River water include:
Colorado River Water Agriculture to Urban Water Transfers
    <bullet> December 1988 IID/MWD Water Conservation and Use of 
Conserved Water Agreement and Associated 1989 Approval Agreement - 
yield of 100,000 to 110,000 acre-feet per year (QSA core transfer) 
[PROJECT OPERATIONAL]
    <bullet> April 1998 Water Conservation and Transfer Agreement 
between IID and SDCWA--yield of 130,000 to 200,000 acre-feet per year, 
and August 1998 Water Exchange Agreement between SDCWA and MWD (QSA 
core transfer)
    <bullet> Coachella Canal [begin construction October 2002] and 
All-American Canal (begin construction September 2003] Lining Projects 
- yield of 94,000 acre-feet per year, including 16,000 acre-feet per 
year to facilitate implementation of the San Luis Rey Indian Water 
Right Settlement (QSA core transfer)
    <bullet> May 1992 PVID/MWD Land Management, Crop Rotation, and 
Water Supply Test Program - yield of 186,000 acre-feet from 1992 to 
1994 [PROJECT COMPLETED]
    <bullet> Proposed PVID/MWD Land Management, Crop Rotation, and 
Water Supply Program- yield of up to 111,000 acre-feet per year 
[PRINCIPLES OF AGREEMENT APPROVED]
    <bullet> Acquisition of San Diego Gas and Electric Company 
properties in the Palo Verde Valley area for inclusion in the PVID/MWD 
proposed program [EXECUTED]
Investments in Colorado River Water Storage Programs
    <bullet> June 1984 MWD/CVWD/Desert Water Agency Advance Delivery 
Agreement--multi-year yield of 600,000 acre-feet based on total storage 
capability [PROJECT OPERATIONAL]
    <bullet> October 1992 MWD/Central Arizona Water Conservation 
District Demonstration Project on Underground Storage of Colorado River 
Water - yield of 81,000 acre-feet [PROJECT COMPLETED]

    Proposed Colorado River Storage and Conjunctive Use Programs ``with 
a goal of 3 million acre-feet of collective storage and a collective 
put-and-take of between 0.3 and 0.4 million acre-feet per year

    <bullet> Hayfield Valley [IN PROGRESS] 800,000 acre-feet of 
storage, recharge and recovery of 150,000 acre-feet per year
    <bullet> Chuckwalla Valley [UNDER EVALUATION] 500,000 acre-feet of 
storage, recharge and recovery of 150,000 acre-feet per year
    <bullet> Cadiz Valley [FINAL EIS RELEASED] 1 million acre-feet of 
storage, recharge and recovery of 150,000 acre-feet per year including 
potential withdrawal of native groundwater
    <bullet> Lower Coachella Valley [UNDER EVALUATION] recharge and 
recovery of 100,000 acre-feet per year over a ten year cycle
    <bullet> Arizona [UNDER EVALUATION] 1 million acre-feet of storage

    Storage and conjunctive use programs in Lower Coachella Valley and 
Arizona would provide the capability of storing Colorado River water 
when the Colorado River Aqueduct is being fully utilized for 
operational reasons, including transport of water stored in off-
aqueduct groundwater basins.
Other Colorado River Water Measures for Improved Reservoir System 
        Operations and Water Conservation
    <bullet> Secretary of the Interior's Colorado River Interim 
Surplus Guidelines [EXECUTED]
    <bullet> Metropolitan's Interim Surplus Guidelines Agreement with 
Arizona [EXECUTED]
    <bullet> Proposed Metropolitan's Interim Surplus Guidelines 
Agreement with Southern Nevada Water Authority [IN PROGRESS]
    <bullet> Secretary of the Interior's Final Rule on Offstream 
Storage of Colorado River Water (Interstate Banking) [EXECUTED]
    <bullet> Proposed Small Offstream Water Management Reservoirs and 
Associated Facilities near the All-American Canal [INITIATE 
ENVIRONMENTAL DOCUMENTATION AND DESIGN 2002]
Complementary
    These actions being taken by Metropolitan lessen the demand for 
imported water and increase water supply reliability.

    <bullet> Southern California investments of more than $1.2 billion 
in water conservation and water recycling (includes 1.6 million ultra-
low-flush toilets, 3.2 million low-flow showerheads, and 15,500 water 
efficient clothes washers)
    <bullet> Metropolitan investments of over $226 million to help 
develop more than 151,000 acre-feet per year of additional water 
supplies from local water recycling, groundwater clean-up and water 
conservation programs
    <bullet> Metropolitan execution of 22 agreements to provide 
financial assistance to projects that recover contaminated groundwater 
with total contract yields of about 81,500 acre-feet per year
    <bullet> Metropolitan execution of 53 agreements to provide 
financial assistance to projects that recycle water with total contract 
yields of about 233,400 acre-feet per year
    <bullet> Through the development of cooperative Local Groundwater 
Storage Programs, Metropolitan currently has 370,000 acre-feet of water 
in storage
    <bullet> Water transfers involving State Water Project water with 
San Bernardino Valley Municipal Water District, Semitropic Water 
Storage District, and Arvin-Edison Water Storage District that can 
provide between 90,000 acre-feet per year during a dry period
    <bullet> Considering additional water transfer agreements with 
interested parties in California's Central Valley
    <bullet> Construction of the $2.1 billion, 800,000 acre-foot 
Diamond Valley Lake storage reservoir, doubling the amount of surface 
storage available in southern California
    <bullet> Construction of the Inland Feeder Project at an estimated 
construction cost of $1.2 billion to provide greater water supply 
management opportunities

    These are only the highlights of the diverse programs being carried 
out by Metropolitan to help meet its, the Agencies, and the State's 
water supply needs. Metropolitan is committed to the Proposed 
Quantification Settlement Agreement, maintaining the Colorado River 
Interim Surplus Guidelines for the full interim period, and 
implementing the California Plan to allow California to reduce its 
dependence on Colorado River water.
    Metropolitan appreciates the opportunity to provide testimony to 
the Subcommittee on this important matter of implementing the 
California Plan. We remain available to answer any questions that 
Members of the Subcommittee may have on our efforts to implement the 
California Plan.
                                 ______
                                 

  Statement of the Imperial Irrigation District, Imperial, California

    The lands within the Imperial Irrigation District hold the largest 
share of California's Colorado River water apportionment. The Imperial 
Irrigation District holds these water rights in trust for the 
landowners. Recognizing that it would take large amounts of water to 
turn a harsh desert environment into a vast agricultural empire, 
Imperial Valley pioneers appropriated, under California law, 
approximately seven million acre-feet of Colorado River water at the 
beginning of the twentieth century.
    Early settlers in the Imperial Valley constructed a canal, 
following the gravity path through Mexico, so as to divert and use 
water from the Colorado River. This was done without the aid of the 
federal government and resulted in the cultivation of a vast area of 
the southern California desert. Later, Valley residents gave up most of 
their seven-million-acre-feet water right as part of a compromise that 
was the foundation for the 1929 Boulder Canyon Project Act. The Act 
authorized construction of Hoover Dam, the All American Canal and the 
Imperial Diversion Dam. Today, IID holds a Present Perfected water 
right in the amount of 2.6 million acre-feet per year. This right, 
recognized by the Supreme Court, is the economic engine that drives one 
of the largest food and fiber production areas in the nation.
    This history means that IID holds a permanent service right to 
Colorado River water and therefore does not purchase water from the 
Bureau of Reclamation as do other irrigation agencies in the West. Nor 
does IID have to engage in the periodic process of obtaining a renewal 
of its water service contract. Furthermore, IID has fully repaid the 
capital costs of those portions of its water delivery system financed 
by the United States (Imperial Diversion Dam and the All American 
Canal), and IID currently operates and maintains those facilities under 
contract with the Department of the Interior.
    Because IID's water right is senior to the Colorado River rights of 
California municipal users, a tension naturally exists between the 
agricultural community and the urban water users. The farmers want to 
keep producing high quality food and fiber and the cities want more 
water for their municipal and industrial needs. This tension is 
exacerbated because California will soon be limited to 4.4 million 
acre-feet of Colorado River water annually, about 750,000 thousand 
acre-feet less than is currently being diverted. With that limitation, 
even the existing demands on the Southern California coastal plain 
cannot be adequately met without water transfers from the agricultural 
sector to the urban sector. It is projected that in less than 20 years 
the population of the Lower Colorado River Region, including areas in 
Mexico, will increase 67 percent over 1990 numbers. This means that 
there will be more than 38 million people living in the region.
    All of this is happening at a time when the San Francisco Bay-Delta 
is constraining the movement of northern California water to Southern 
California, when endangered fish and bird species may require more 
water from the Lower Colorado River system, and when there is 
increasing concern over the Colorado River delta in Mexico.
    For many years the Imperial Irrigation District has recognized that 
it could be part of the solution to California's water problems. Over 
the last 50 years the IID has proactively promoted water conservation, 
investing about $160 million (1996 equivalent dollars) on water 
conservation measures prior to 1988. IID estimates that more than 
100,000 acre-feet of water per year have been saved as a result of 
these measures. In addition, over the past several decades Imperial 
Valley farmers have invested about $340 million in on-farm improvements 
and water efficiency measures conserving an additional 385,000 acre-
feet annually.
    In a further effort toward improving water use efficiency, IID 
entered into an historic 1988 agreement with the Metropolitan Water 
District of Southern California (MWD) to conserve approximately 110,000 
acre feet per year, which is now available for diversion and use by 
MWD. The water conserved for MWD has been developed through a 
combination of system and on-farm efficiency measures, with the savings 
verified by a panel of experts. Following implementation of the IID-MWD 
agreement, IID saw that demands for water would continue to increase in 
urban Southern California, and the agency approached MWD in the early 
1990's about entering into another water conservation and transfer 
agreement similar to the one executed in 1988. MWD, in part believing 
that there would be sufficient unused apportionment water from Arizona 
and Nevada through the year 2030, did not see the need for another 
water conservation/transfer program. But the San Diego County Water 
Authority (SDCWA) did see the need. SDCWA believed a water crisis was 
imminent, knew its water demand would double by the year 2020, and 
recognized that the SDCWA was junior in priority to other MWD member 
agencies.
    San Diego knew that market-based agricultural-to-urban transfers 
would help meet Southern California's water demands. In April of 1998 
IID and SDCWA entered into a water conservation and transfer agreement 
for up to 200,000 acre-feet, to be developed primarily through on-farm 
conservation measures. Since a great deal of the less-expensive 
conservation opportunities have already been undertaken within IID, 
this leaves more expensive conservation measures to be funded by the 
SDCWA. Investment in these measures by San Diego is rewarded by 
obtaining for a period of years conserved water from IID's very senior 
water entitlement that is largely immune from shortages. On the other 
hand, the IID-SDCWA agreement allows the IID farmers to farm the same 
amount of land with less water, thus avoiding conservation measures 
such as fallowing that would have a significant impact on the Imperial 
Valley economy. The IID-SDCWA transfer agreement presents the classic 
win-win solution to a very difficult resources supply problem.
    Consistent with IID's long history of collaboration in programs 
necessary to ensure the long term sustainability of Colorado River 
water use in the southwestern United States, IID has again agreed to 
assist in making water available for urban southern California through 
the Quantification Settlement Agreement (QSA). Through the QSA IID has 
put its water assets on the table to help solve water supply problems 
facing the Coachella Valley Water District, MWD, and SDCWA. Some of the 
elements of the IID voluntary contributions in the QSA include:

    1. An offer to voluntarily cap IID's entitlement at 3.1 million 
acre-feet--170,000 acre-feet less than was actually used in 1997, and 
300,000 acre-feet less than IID's highest annual use.
    2. An offer to make available up to 300,000 acre-feet of conserved 
water under long-term transfer agreements (up to 200,000 acre feet 
under the SDCWA agreement and 100,000 acre feet to the Coachella 
district or MWD).
    3. An agreement providing that all future and current conservation 
projects within IID will be deducted from the 3.1 million acre-foot 
cap, including:
        a) the IID/MWD 1988 agreement to conserve 110,000 acre-feet 
        through canal lining, system reservoirs, and other actions
        b) the All American Canal lining project, which will yield 
        67,000 acre feet
        c) the IID/SDCWA transfer of conserved water up to 200,000 
        acre feet
        d) the IID/CVWD-MWD transfer of conserved water totaling 
        100,000 acre feet
        e) forbearance of IID's senior right to priority 6 water 
        equaling 300,000 acre feet
        f) forbearance of IID's senior right to priority 7 water 
        (unquantified surplus).
    It is important to appreciate the contribution that IID is making 
in order to support the QSA and the resolution of the southern 
California water supply problem. As noted above, IID has in the past 
used as much as 3.2 million acre-feet of Colorado River water in one 
year. As a result of the QSA, IID's use will be voluntarily capped at 
3.1 million acre-feet per year for the life of the QSA. From that 
capped amount there will be deducted all of the conserved water to be 
transferred to the urban sector, leaving IID with about 2.6--2.7 
million acre-feet per year--a reduction of 700,000 to 800,000 acre-feet 
annually. IID's agreement to support the water transfers and to live 
for a period of years with a much smaller water supply is critical to 
the success of the QSA.
    However, it must be understood by the Congress and the 
Administration that these contributions, and the other benefits of the 
historic Quantification Settlement Agreement, cannot come to fruition 
unless the extreme difficulties with both federal and state Endangered 
Species Act compliance can be overcome. A solution will require support 
in the form of cooperation from state and federal agencies as well as 
funding and other resources. Again, IID has worked diligently to help 
find solutions to these problems without unreasonably increasing the 
financial burden on IID or its landowners and without harming the 
economic viability of the Imperial Valley.
    It is also important to emphasize that transferring water out of an 
agricultural community is always controversial, primarily because water 
is the lifeblood of the local community. The IID Board of Directors is 
elected by all of the voters in the Imperial Valley, as opposed to just 
the landowner/farmers. This means that the entire Imperial Valley 
community is interested in, and directly connected to, the water 
transfers and the overall judgment as to the merits of the QSA. The 
people of the Imperial Valley are likely to continue to support the QSA 
so long as it remains a win-win deal for all concerned. However, if 
implementing the QSA results in great hardship on the Valley, or causes 
negative impacts on the Valley economy, support for the water transfers 
and the QSA will likely evaporate.
    In summary, IID will continue to work in collaboration with others 
to help find and craft solutions to California's water supply problems 
so long as IID's interests are protected throughout the process. IID is 
committed to following through with the implementation of the water 
transfers and the QSA, but it is imperative for both Congress and the 
Administration to understand that water transfers of this magnitude 
will require the cooperation of the state and federal governments in 
addition to the QSA parties, and that the economic security and 
viability of the Imperial Valley should not be compromised simply to 
provide water supply reliability for urban southern California.
                                 ______
                                 
    Mr. Calvert. Thank you.
    Mr. Graff, you are recognized.

   STATEMENT OF TOM GRAFF, REGIONAL DIRECTOR, ENVIRONMENTAL 
                          DEFENSE FUND

    Mr. Graff. Thank you, Mr. Chairman, members. There are a 
lot of common themes so I am going to try to move quickly 
through my testimony, and maybe we will get more exposure of 
some of the complications in the Q&A period.
    Just a couple things about my credentials here, such as 
they are. In addition to being regional director of 
Environmental Defense, I did serve for two and a half years 
many years ago as a member of the Colorado River Board of 
California, 1980 to 1983, and I was a participant in then 
Environmental Defense Fund's publication in 1983 of a document 
called, ``Trading Conservation Investments for Water,'' which 
promoted many of the ideas that we have been discussing already 
here at this hearing. Just by way of linkages with other 
aspects of California's water situation, that was shortly after 
the defeat of the peripheral canal referendum in 1982.
    As my written testimony states, we give great credit to the 
Federal, state and regional agencies who have been doing 
remarkable work in getting us as far as they have in reaching 
solutions to the Colorado River's shortage problems. And in 
particular, I want to credit the voluntary conservation and 
transfer agreements, particularly the recent one between San 
Diego and IID and the even more remarkable Quantification 
Settlement Agreement, which actually got the four agencies and 
others all on one page as to how to allocated California's 
limited entitlement share to Colorado River waters.
    I also want to note, as has been noted already, that others 
would benefit from California's implementing the California 
Plan and the QSA. In particular, since we are in Nevada, I 
think it is clearly in Nevada's interest that these agreements 
go forward, and I just want to say, since we have 
representatives both from Nevada and Utah on this panel, that 
they have been among the more creative of the states of the 
Basin in nudging us all toward actually considering interstate 
water marketing in years to come.
    But as we all know, these--I also should mention as a 
potential problem, although not so much with these agreements, 
in my judgment, there are very important questions about 
deliveries of water to the Colorado River Delta and Gulf of 
California, which are now the subject of international 
agreement and further deliberation. But it is the case that, to 
the extent California will get additional water in the next 15 
years that it might otherwise not have gotten had all these 
agreements not come into being, that the Delta could be 
shorted, and that is something that should be addressed, and 
presumably it will be in other forums.
    I am going to get to the two other major points in my 
testimony in a moment, one being the impacts of the agreements 
potentially on the Salton Sea and the problems of the Salton 
Sea and the issues within the community in Imperial Valley. But 
I wanted to noted first agreement, I think, with the remarks 
earlier of Assistant Secretary Raley and link them to the 
written testimony that I provided here about the amendment that 
Congressman Hansen introduced into your bill, Congressman 
Calvert, which you referenced in your opening statement.
    I think what both, the Assistant Secretary's remarks and 
the Congressman's amendment, demonstrate is the real urgency 
which we all face in trying to resolve these issues, and I will 
just make a personal comment. I think these issues are more 
urgent than some of the others in California over which we and 
others have fought very hard, legislatively and otherwise. I 
think really focused attention on the part of all the 
interested parties--Federal, the states, California interests 
and the environmental communities--should be focused on these 
issues to try to get them resolved.
    Now, what are the big ones? The big ones are the impacts of 
limiting California's diversions on the Salton Sea. In recent 
times, we have, within the environmental community--and I 
should say, there are many environmental stakeholders here, and 
I don't purport to speak for any but the Environmental 
Defense--have been engaged in discussions that we hope will 
lead to solutions protecting most of the environmental 
resources at issue. And in particular, the concept of 
generating a large fund with major contributions form the 
agencies, from the State of California and from the United 
States that would be used to address the environmental issues 
has been winning considerable support, and I hope that a lot of 
attention gets put to try to put that fund together and to 
figuring out what are fair allocations of responsibility among 
the disparate interests.
    The socioeconomic issues in the Imperial Valley are another 
story. The IID is an irrigation district and thus elected by 
its residents rather than by its landowners. On the other hand, 
the water rights there are ancient and go back to the 
landowners themselves. And the tension I think that those two 
facts creates within the Imperial Valley as to who might 
benefit from these transfers and where the incentives should 
run and what kinds of conservation investments should be made I 
think has complicated the attitudes within that community 
toward the transfer, and I think has made it particularly 
complicated to close the deal, so to speak, both on the 
environmental side and on the distribution of whatever 
financial payments might be made side as well.
    I say here in the written testimony whether Congress or the 
Federal Administration can provide significant help in sorting 
out these internal divisions is unclear. Perhaps all that can 
be done is being done. I don't know if that is true. Commenting 
a little bit on what Assistant Secretary Raley said earlier, it 
is true that the seven states have been a major contributor to 
bringing the ball as far down the field as it already has been 
brought. There have been a lot of first downs, we are getting 
near the goal line, but at this point I think it is really 
incumbent upon the United States and in particular in its 
dealings with the IID and environmental compliance and with the 
Salton Sea authority in developing a plan for the Salton Sea to 
provide leadership in getting us across the goal line. I don't 
think it will be done just by the states themselves or by the 
agencies themselves.
    To conclude, no one ever said it would be easy to reduce 
California's use of Colorado River water by 700,000 acre feet, 
but with the timely establishment of a substantial 
environmental mitigation and restoration fund and with 
meaningful community-based reinvestment of an appropriate share 
of water transfer proceeds, perhaps the California Plan will 
become a model of sustainable resource management, not only in 
California but for the Nation as a whole. Thank you.
    [The prepared statement of Mr. Graff follows:]

 Statement of Thomas J. Graff, Regional Director, Environmental Defense

    Congressman Calvert and Members of the Subcommittee on Water and 
Power:
    Thank you for your invitation to testify today on the 
``Implementation of the California Plan for the Colorado River''. A 
tremendous amount of creative and cooperative work has gone into the 
preparation and implementation of the California plan for the Colorado 
River at all levels of government, federal, state and regional. It is 
no small achievement for a state and its subdivisions apparently to 
commit to an effective reduction of 600,000-800,000 acre feet per year 
in its diversions of water from any source, especially one on which it 
has been dependent in some cases for over a century and in others for 
sixty years and longer. Yet that is collectively what the state of 
California, the Coachella Valley Water District (CVWD), the Imperial 
Irrigation District (IID), the Metropolitan Water District of Southern 
California (MWD), and the San Diego County Water Authority (SDCWA) have 
done with respect to California's withdrawals from the Colorado River. 
Voluntary conservation and transfer. Quantification settlement. 
Innovative groundwater storage and conjunctive use. All are important 
and praiseworthy aspects of the California plan.
    Should California succeed in implementing its plan, many other 
interests dependent on the Colorado River will have a significantly 
higher probability of meeting their needs and desires. Among these 
interests are the other six Colorado River Basin states. In particular, 
here within the Lower Basin, Arizona's Central Arizona Project 
diversions are generally junior to California's 4.4 million acre feet 
entitlement and Nevada's 300,000 acre feet entitlement may not be 
sufficient over the long-term to meet burgeoning growth in the greater 
Las Vegas metropolitan area. Other potential beneficiaries of 
California's success in implementing its Plan are the Colorado River 
Basin's Indian tribes, towards whom the United States has solemn trust 
responsibilities; the users of the River in Mexico, where the per 
capita consumptive use of water in the region's cities is much lower 
than in the United States and where economic development is surging; 
and at least in the long term the environmental resources of the long 
neglected Colorado River Delta and Gulf of California, whose values 
have only recently been acknowledged in international negotiations and 
forums (even as the Interim Surplus Guidelines may diminish the 
available potential water supplies available to serve their needs).
    In addition to impacting the Delta, implementation of the 
California plan potentially could also bring about significant losses 
within California. Of these potential losses, the most significant are 
the environmental values associated with the Salton Sea and the 
community's interests in the Imperial Valley. Ironically, both of these 
resources are already threatened, even without implementation of the 
conservation and transfer components of the California plan having yet 
produced any significant effects.
    Just as the various levels of government should receive appropriate 
credit for the promulgation of the California plan, so should they all 
bear at least partial responsibility for the current problems of the 
Salton Sea and for economic inequities and hardships within the 
Imperial Valley community. Unfortunately, however, acknowledgment of 
these responsibilities has not proceeded with the same urgency as did 
the promulgation of the California Plan. As a result, implementation of 
the California plan may yet founder because there is understandable 
resistance to its potential consequences arising from an environmental 
community concerned most particularly about its impacts on the 
incredibly diverse bird life, including the endangered pelican, who 
even in today's degraded circumstances make use of the Salton Sea's 
bounty. And it may founder as well because within the Imperial Valley 
there are many who understandably question the adverse distributional 
and economic effects that could result from implementation of the 
conservation and transfer provisions of the California plan, even as 
some could obtain very large financial benefits from the transfer 
payments.
    External pressures to address and resolve these problems are 
significant. Most notably, as the Subcommittee chairman is of course 
aware, his bill, H.R. 3208, designed to move forward California's other 
great experiment with consensus decision-making, the CALFED process, 
was recently amended in Committee mark-up by the Committee's chairman, 
Congressman Hansen of Utah. The Chairman inserted a draconian provision 
into H.R. 3208, section 301 (e), that would prohibit the Secretary of 
the Interior from delivering to California any more than 4.4 million 
acre feet of water in any year after 2016, except when the Colorado 
River is in a flood avoidance circumstance. If passed into law, this 
provision effectively requires California to move even faster and more 
comprehensively towards 4.4 than would otherwise be the result of 
implementation of the California plan. While the present California 
plan is often referred to as a 4.4 plan, in its explicit terms it would 
appear to commit the state only to move substantially in the direction 
of 4.4, rather than actually to achieve that landmark on a regular 
basis by the year 2016.
    The question thus arises whether the responsible entities at all 
levels of government have the intention, the will, or the means to 
address the environmental and the socio-economic aspects of 
California's present and future diversions of water from the Colorado 
River.
    In answering this question, the jury is still out. In recent 
months, the four agencies who share most of California's Colorado River 
rights only have recently begun to struggle seriously with the 
environmental issues and to engage environmental stakeholders in 
discussions that could lead to solutions protecting most of the 
environmental resources at issue. In particular, the concept of 
generating a large fund, with major contributions from the agencies, 
from the state, and from the United States, that would be used to 
address the environmental issues, has won considerable support. With 
sufficient financial resources and governmental commitments, an 
environmental solution, such as the one proposed by the Pacific 
Institute to save the most ecologically significant aspects of the 
Salton Sea on a sustainable basis, could well allow the California plan 
to proceed without major adverse environmental consequences. Indeed, if 
such a solution can be devised that is sustainable over a long period, 
the net result may well be environmentally positive, in that the 
current trend line for fish survival in the Salton Sea, absent 
governmental intervention, is undoubtedly negative under virtually any 
scenario.
    The socio-economic issues in the Imperial Valley are another story. 
Despite the fact that the Imperial Irrigation District board is an 
entity elected by the community at large, unlike most agricultural 
water districts in California whose boards are selected only by 
landowners, the unemployment rate in Imperial Valley is high and the 
income disparities great. The income generated from the conservation 
and transfer arrangements that the IID has negotiated could help 
address these problems if the community seizes the opportunity. Many of 
the past delays in reaching consensus on the California plan, and the 
more recent delays in developing environmental mitigation and 
restoration plans, however, can be attributed to divisions within the 
Imperial Valley community. It no doubt would be difficult for any 
community to come to terms with a future in which its principal natural 
resource is slated to be reduced by as much as 25 percent. But even a 
future in which IID receives substantially less water can be bright, if 
the community wisely deploys the financial resources that the south 
coastal urban areas are providing in exchange for the water lost (at 
worst, it is worth noting, the IID will still receive close to 2.5 
million acre feet per year). Whether Congress or the federal 
Administration can provide significant help in sorting out the internal 
divisions within the Valley is unclear. Perhaps all that can be done is 
being done. The United States is, after all, a full partner with IID in 
the habitat conservation planning that is a prerequisite to any 
solution to the California plan's environmental problems. And the 
United States is also a full partner with the Salton Sea Authority in 
developing a long-term plan for the Salton Sea, a partnership that 
ironically also has recently involved addressing economic aspects of 
the Imperial Valley's water situation, including the highly charged 
issue of land fallowing.
    What these partnerships reflect is the interconnectedness of the 
environmental, economic, and social issues raised by California's 
commitment to go on a Colorado River ``water diet''. No one ever said 
it would be easy to reduce California's use of Colorado River water by 
700,000 acre feet. But with the timely establishment of a substantial 
environmental mitigation and restoration fund and with meaningful 
community-based reinvestment of an appropriate share of water transfer 
proceeds, perhaps the California plan can still become a model of 
sustainable resource management, not only in California, but for the 
nation as a whole.
                                 ______
                                 
    Mr. Calvert. Thank you, Mr. Graff.
    Mr. Caan?

 STATEMENT OF GEORGE CAAN, EXECUTIVE DIRECTOR, COLORADO RIVER 
                           COMMISSION

    Mr. Caan. Thank you, Chairman Calvert. I want to thank you 
for the invitation to testify today. My name is George Caan, 
and I am executive director of the Colorado River Commission of 
Nevada. This is your second hearing on important issues related 
to the Colorado River. It has been some time since a Committee 
of the Congress was interested enough in the Colorado River to 
convene successive hearings such as these. Thank you for the 
leadership you have shown during your tenure as Chairman of the 
Water and Power Subcommittee and for holding this hearing in 
Las Vegas.
    For over a decade, the Colorado River Commission of Nevada 
and the Southern Nevada Water Authority have aggressively 
pursued a strategy to augment Nevada's minuscule 300,000 acre 
feet entitlement to Colorado River water. As the fastest 
growing community in the Nation, we recognize that although our 
successful water conservation and wastewater reuse programs 
would only serve to stretch our supplies, additional water 
resources are critical for our survival.
    In Nevada, we have learned that we cannot solve our own 
problems without being involved in helping to solve those in 
the other Colorado River Basin states. This is especially true 
for California which consumes the largest share of the Colorado 
River. For that reason we have labored for almost a decade with 
the other Basin states through countless meetings to achieve 
consensus among the seven Basin states around solutions which 
are innovative and bold and still preserve the underlying 
fabric of the Law of the River.
    I want to point out at the outset that this has been a 
state-driven process. We have appreciated the support and 
encouragement of the Interior Department, the solutions which 
have evolved all had their genesis within the seven-state 
process and not in Washington.
    Possibly the most difficult issue we have faced is the need 
for California to wean itself away from overuse of the Colorado 
and live within its 4.4 million acre foot entitlement. As you 
have been shown, this will require nearly 800,000 acre feet of 
reduced deliveries. The seven states developed a proposal which 
allows California an assured water supply for the next 15 
years, during which time it must make substantial progress with 
periodic milestones to reduce its use of Colorado River water. 
This assured supply comes in the form of what we call Interim 
Surplus Criteria, which in layman's terms means that all the 
states agree to allow the Secretary of the Interior, as water 
master for the Lower Basin, to declare each year for the next 
15 years, that there is enough surplus water in the reservoirs 
to release an extra amount above the Lower Basin's entitlement 
of 7.5 million acre feet. The surplus amount that is to be 
released each year depends upon the elevation of Lake Mead.
    This remarkable plan was signed by the Secretary of 
Interior last January. For the first time, it schedules the 
delivery of this additional water based on type of uses, with 
municipal and industrial needs first, then agriculture, rather 
than on the old western water law doctrine of prior 
appropriation.
    Nevada benefits significantly from these surplus 
deliveries. Because we are an M&I delivery, the criteria will 
all but ensure an adequate water supply for all of southern 
Nevada's needs through 2016. Nevada shares with California 
these interim supplies, and therefore we are vitally concerned 
that California meet its milestone targets to ramp down usage 
of Colorado River water. If California fails to do so, we will 
lose our assured water supply rights along with them. In other 
words, Nevada's water supply future is inextricably tied to 
what occurs in California.
    For that reason, Nevada has a vested interest in the 
success of California internal efforts to conserve water such 
as the IID to San Diego transfer as well as to develop 
additional sources of supply for southern California. We 
understand the relationship between the Salton Sea issue and 
the IID-San Diego transfer, and we are supportive of 
Representative Hunter's bill, H.R. 2764, The Colorado River 
Quantification Settlement Act. While there are certainly 
important details of the bill which need to be resolved, we do 
support the overall premise of the bill to provide Federal 
funding to assist with the Salton Sea environmental studies and 
other projects needed to ensure the success of that water 
transfer.
    To the same end, we support your efforts, Representative 
Calvert, along with those of Senator Feinstein to pass a CALFED 
authorization bill providing for funding for water development 
projects throughout California. These projects will help 
California reduce its over dependence upon the Colorado.
    During the recent markup of the CALFED bill, the Chairman 
of the Resources Committee, Representative Hansen of Utah, 
attached an amendment which statutorily requires that after the 
15-year period covered by the interim surplus criteria, the 
Secretary of the Interior must default to a conservative one-
size-fits-all operating plan for the Colorado River each year 
thereafter. The Hansen amendment, while well meaning, is a very 
dangerous precedent. The State of Nevada strongly believes that 
the annual operating plan for the Colorado River should be 
developed in an open process among the seven Basin states 
working cooperatively with the Secretary of Interior and other 
interested parties. This is a tried and true process which has 
resulted in significant and positive operating changes to meet 
future needs while doing so in harmony with the Law of the 
River.
    With only 300,000 acre feet of Colorado River entitlement, 
Nevada has learned the importance of working with our sister 
states to find river management solutions. The Arizona 
Groundwater Banking Plan and the interim surplus criteria were 
achieved by good faith, state-based negotiations. By locking 
into Federal law a single one-size-fits-all operating plan, the 
Hansen amendment would put an end to these creative state-based 
solutions. The amendment returns the Colorado River wars to the 
Halls of Congress. This is most unfortunate. Nevada strongly 
believes Congress should let the seven Basin states determine 
how to operate the Colorado River for the benefit of all.
    In conclusion, Nevada's water future looks far more secure 
today than it did 10 years ago. This is the result of some 
significant achievements brought about by the seven Basin 
states working together along with a supportive Interior 
Department. There is more to do. California has just begun its 
difficult task of conserving and finding enough water to meet 
its needs. We face significant and important environmental 
challenges such as the Endangered Fish Recovery Program, 
finding a practical and affordable Salton Sea solution and 
addressing the international consequences associated with the 
Mexican Delta. I am confident in our ability to find more 
innovative solutions, working together, and being connected. 
Again, thank you for the opportunity to testify.
    [The prepared statement of Mr. Caan follows:]

Statement of George Caan, Executive Director, Colorado River Commission 
                               of Nevada

Introduction
    Chairman Calvert, I thank you for the invitation to testify today. 
My name is George Caan and I am Executive Director of the Colorado 
River Commission of Nevada. This is your second hearing on important 
issues relating to the Colorado River. It has been some time since a 
Committee of the Congress was interested enough in the Colorado River 
to convene successive hearings such as these. Thank you for the 
leadership you have shown during your tenure as Chairman of the Water 
and Power Subcommittee and for holding this hearing in Las Vegas.
    For over a decade, the Colorado River Commission of Nevada and 
Southern Nevada Water Authority who is responsible for all water 
resource planning and acquisition for southern Nevada purveyors, have 
aggressively pursued a strategy to augment Nevada's minuscule 300,000 
acre foot entitlement to Colorado river water. As the fastest growing 
community in the nation, we recognized that although our successful 
water conservation and wastewater reuse programs would only serve to 
stretch our supplies, additional water resources are critical for our 
survival.
    In Nevada we have learned that we cannot solve our own problems 
without being involved in helping to solve those in the other Colorado 
River basin states. This is especially true for California which 
consumes the largest share of the Colorado River. For that reason we 
have labored for almost a decade with the other basin states through 
countless meetings to achieve consensus among the seven basin states 
around solutions which are innovative and bold and still preserve the 
underlying fabric of the Law of the River.
    I want to point out at the outset that this has been a state driven 
process. We have appreciated the support and encouragement of the 
Interior Department, the solutions which have evolved all had their 
genesis within the seven state process and not in Washington.
Interim Surplus Criteria and the California 4.4 Plan
    Possibly the most difficult issue we have faced is the need for 
California to ween itself away from overuse of the Colorado and live 
within its 4.4 million acre foot entitlement. This will require nearly 
800,000 acre feet reduced deliveries from the amount California has 
been regularly using. The seven states developed a proposal which 
allows California an assured water supply for the next fifteen years 
during which time it must make substantial progress with periodic 
milestones to reduce its use of Colorado River water. This assured 
supply comes in the form of what we call Interim Surplus Criteria, 
which in layman's terms means that all the states agree to allow the 
Secretary of the Interior as water master for the lower basin, to 
declare each year for the next fifteen years, that there is enough 
surplus water in the reservoirs to release an extra amount above the 
lower basin's entitlement of 7.5 million acre feet. The surplus amount 
that is to be released each year depends upon the elevation of Lake 
Mead.
    This remarkable plan was signed by the Secretary of Interior last 
January and for the first time schedules the delivery of this 
additional water based upon type of uses, with Municipal and Industrial 
needs first, then agriculture, rather than on the old western water law 
doctrine of prior appropriation or put another way, first in time is 
first in right.
    Nevada benefits significantly from these surplus deliveries. 
Because we are an M&I delivery, the Interim Surplus Criteria will all 
but ensure an adequate water supply for all of southern Nevada's needs 
through 2016. Nevada shares with California these interim surplus 
supplies and therefore are vitally concerned that California meet its 
milestone targets to ramp down usage of Colorado River water. If 
California fails to do so, we will lose our assured water supply rights 
along with them. In other words, Nevada's water supply future is 
inextricably tied to what occurs in California.
    For that reason, Nevada has a vested interest in the success of 
California internal efforts to conserve water such as the IID to San 
Diego transfer as well as to develop additional sources of supply for 
southern California. We understand the relationship between the Salton 
Sea issue and the IID-San Diego transfer and we are supportive of Rep. 
Duncan Hunter's bill, H.R. 2764, The Colorado River Quantification 
Settlement Facilitation Act. While there are certainly important 
details of the bill which need to be resolved, we support the overall 
premise of the bill to provide federal funding to assist with the 
Salton Sea environmental studies and other projects needed to ensure 
the success of that water transfer.
    To the same end we support your efforts Rep. Calvert, along with 
those of Senator Dianne Feinstein to pass a CALFED authorization bill 
providing for funding for water development projects throughout 
California. These projects will help California reduce its over 
dependence upon the Colorado. Nevada is not going to presume to tell 
Californians which CALFED water projects to build or not to build, that 
is up to you to fight that out amongst yourself.

Hansen Amendment
    During the recent markup of the CALFED bill, the Chairman of the 
Resources Committee, Representative Hansen of Utah attached an 
amendment which statutorily requires that after the fifteen year period 
covered by the interim surplus criteria, the Secretary of the Interior 
must default to a conservative ``70-R'' operating plan for the Colorado 
River each year thereafter. The Hansen amendment, while well meaning, 
is a very dangerous precedent. The State of Nevada strongly believes 
that the annual operating plan for the Colorado River should be 
developed in an open process among the seven basin states working 
cooperatively with the Secretary and other interested parties. This is 
a tried and true process which has resulted in significant and positive 
operating changes to meet future needs while doing so in harmony with 
the Law of the River.
    With only 300,000 acre feet of Colorado River entitlement, Nevada 
has learned the importance of working with our sister states to find 
river management solutions. The Arizona groundwater banking plan and 
the interim surplus criteria were achieved by good faith, state based 
negotiations. By locking into federal law a single, one size fits all 
operating plan that maximizes storage in basin reservoirs, the Hansen 
amendment would put an end to these creative state based solutions.
    The Hansen amendment returns the Colorado River wars to the Halls 
of Congress. The other basin states, especially California have 
necessarily felt the need to respond to the Hansen amendment with 
legislative amendments of their own. This is most unfortunate. Nevada 
strongly believes Congress should let the Seven Basin states determine 
how to operate the Colorado River for the benefit of all.
Conclusion
    In conclusion, Nevada's water future looks far more secure today 
than it did ten years ago. This is the result of some significant 
achievements brought about by the seven basin states working together 
along with a supportive Interior Department. There is more to do. 
California has just begun its difficult task of conserving and finding 
enough water to meet its needs. We face significant and important 
environmental challenges such as the endangered fishes recovery 
program, finding a practical and affordable Salton Sea solution and 
addressing the international consequences associated with the Mexican 
Delta. I am confident in our ability to find more innovative solutions, 
working together, connected. Thank you again for the opportunity to 
testify.
                                 ______
                                 
    Mr. Calvert. Thank you for your testimony.
    Mr. Zimmerman?

STATEMENT OF GERALD R. ZIMMERMAN, EXECUTIVE DIRECTOR, COLORADO 
                   RIVER BOARD OF CALIFORNIA

    Mr. Zimmerman. Thank you, Mr. Chairman, members of the 
Committee. I am Gerry Zimmerman, the executive director of the 
Colorado River Board of California. I guess either fortunately 
or unfortunately being last on the panel, everybody has said 
what you wanted to say. But what I want to do is highlight a 
few of the comments that have been made by previous presenters 
and to focus on the importance of the Colorado River to 
California. The water and power resources provided by the 
Colorado River are vital to California's economy. Seven 
counties in southern California comprise 17 million people. 
About half of the State's population receive both water and 
power from the Colorado River, and recently the up to 5.2 
million acre feet of water that has been diverted from the 
Colorado River represents about 65 percent of the water used 
within southern California. That water is used to irrigate 
about 900,000 acres of irrigated cropland, it produces 3.5 
billion kilowatt hours of hydroelectric energy, and it supports 
vital fish and wildlife and recreational resources enjoyed by 
Californians as well as people from other states and other 
countries.
    The Colorado River supports a service area economy of 
southern California in excess of $400 billion. The entire State 
has benefited both directly, indirectly by California's ability 
under the existing Law of the River to use more than its 4.4 
million acre-foot basic apportionment. In 1991 and 1992, as 
California faced its fifth and sixth consecutive years of 
drought, the entities within southern California were able to 
divert all of the water that they had requested from the 
Colorado River. Had they not been able to do that there would 
have been more severe rationing within southern California.
    In the future, if the Metropolitan Water District of 
southern California is unable to maintain a full Colorado River 
aqueduct, more pressure will be placed on the State water 
project and related facilities. That will impact the Central 
Valley and the San Francisco and San Jose areas. This year, 
without a surplus on the Colorado River, as has been mentioned, 
California's ability to use water within southern California 
would have been reduced by 700,000 acre feet of water. That 
could have economic impacts on all of California, not just 
southern California.
    If we look at the State water project and the water that is 
provided by that project this year, the State water project 
contractors were limited to 39 percent of their State water 
project allocation. If the drought continues next year, you are 
looking at a possibility of a 20 percent allocation from the 
State water project. I think this emphasizes that the Colorado 
River and maintaining a full Colorado River aqueduct is very 
important to southern California and California as a whole.
    If we look at the Colorado River Plan, as Maureen has 
generally explained, that plan was developed by the Colorado 
River Board of California in 1997. A more comprehensive draft 
then was released to the Colorado River Basin states in May of 
2000. We are holding finalizing that plan until after the 
Quantification Settlement Agreement is signed and after all the 
environmental compliance with the projects related to the plan 
is completed. We are holding off doing that so that we can 
incorporate all of that date information into the final plan.
    I would just say that we are making significant progress in 
implementation of the plan. As has been indicated, the State of 
California has provided $235 million to assist in implementing 
the plan--$200 million for lining the all-American Coachella 
canals and $35 million for groundwater conjunctive use project, 
alongside the Metropolitan's Colorado River aqueduct. Funding 
agreements have been executed between Metropolitan Water 
District and the State of California for the Coachella lining 
canal, or lining project, as well as for the Hayfield project 
alongside the Colorado River aqueduct.
    As has been indicated by the state representatives, each of 
the state representatives support implementation of the 
Colorado River Water Use Plan, as does the Department of 
Interior.
    At this time, there are three critical items that I see 
have to be solved. The first is execution of the Quantification 
Settlement Agreement by December 31, 2002. We also have to have 
continued operation of the Colorado River system reservoirs 
under the Interim Surplus Criteria. And, third, we have to be 
able to implement the elements of California's Colorado River 
Water Use Plan in accordance to the schedule, as contained in 
that plan.
    The challenge facing implementation of the plan, as has 
been raised by others today, is the Salton Sea and the State 
and Federal ESA issues. Maureen has indicated the temporal 
impact that the water transfers have on the Salton Sea, so I 
won't go into those. What I would also highlight is the 
relationship between the Quantification Settlement Agreement 
and the Interim Surplus Criteria. The Record of Decision on the 
Interim Surplus Criteria contains milestones that the State of 
California must meet in order to keep the Interim Surplus 
Criteria in place. The first milestone is December 31, 2002, 
execution of the Quantification Settlement Agreement.
    Mr. Chairman, rather than take any more time, what I would 
like to do is conclude by saying that the Colorado River plays 
a very important role in maintaining a stable water supply 
picture, not only for southern California but for the State as 
a whole. Implementation of Colorado River's Water Use Plan and 
the associated Quantification Settlement Agreement and the core 
water transfer are a priority within California and a 
prerequisite for southern California to be able to meet its 
water supply needs. If a Quantification Settlement Agreement is 
not executed by December 31, 2002, the Interim Surplus Criteria 
face suspension. That suspension would result in about 700,000 
acre feet of water to the coastal plain of southern California 
being lost as early as 2003. Such a large shortage would result 
in severe economic impacts that would be felt throughout 
California and the Southwest.
    Mr. Chairman, thank you for the opportunity to testify 
before this Committee today, and I know that working together 
we will be able to make a difference.
    [The prepared statement of Mr. Zimmerman follows:]

 Statement of Gerald R. Zimmerman, Executive Director, Colorado River 
                          Board of California

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear before you today. I will discuss the importance 
of the Colorado River to California, as well as, the progress being 
made and the challenges being faced by Californians in reducing their 
water supply needs from the Colorado River to fit within California's 
annual apportionment of Colorado River water.

The Colorado River Board
    The Colorado River Board of California was established in 1937 by 
State statute to protect California's rights and interest in the 
resources provided by the Colorado River and to represent California in 
discussions and negotiations regarding the Colorado River and its 
management. The 10 members that sit on the Colorado River Board are 
appointed by the Governor and include the directors of the Departments 
of Water Resources and Fish and Game. The Chairman of the Colorado 
River Board is California's Colorado River Commissioner.

Importance of the Colorado River
    California's rights and interests in the water and power resources 
of the Colorado River System are vital to the State's economy. Seven 
counties in Southern California, with a population of over 17 million, 
more than half of the state's population, receive water and 
hydroelectric energy from the Colorado River. Recently, up to 5.2 
million acre-feet (maf) of Colorado River water per year have been 
consumed by California's municipal, industrial, and agricultural 
interests in a year. This represents about 65 percent of the total 
water used in Southern California. The Colorado River provides a water 
supply for about 900,000 acres of irrigated agriculture and is a 
supplemental or sole source of water for over 17 million people in 
Southern California. In addition, it provides California residents 
about 3.5 billion kilowatt-hours of hydroelectric energy a year, as 
well as, supports vital fish, wildlife and recreational resources 
enjoyed by Californians and residents from other states and countries. 
Water received from the Colorado River supports a service area economy 
in Southern California in excess of $400 billion.
    Much of the area within California served by the Colorado River has 
no other significant water supply. The river supports agricultural 
water users in the southeastern portion of the State--providing 
virtually all of the water used by Imperial Irrigation District (IID), 
Palo Verde Irrigation District (PVID), and the Yuma Project, as well as 
most of the water used by Coachella Valley Water District (CVWD). The 
River supports urban water users on the Southern California coastal 
plain, an area that includes parts of six counties and half of the 
State's population. Approximately 60 percent of the coastal plain's 
water supplies have been imported from elsewhere during the past 10 
years--from the Central Valley by the California State Water Project, 
from the Mono Basin-Owens River area by the City of Los Angeles 
Aqueducts, and from the Colorado River by Metropolitan Water District 
of Southern California's (MWD's) Colorado River Aqueduct. Of the 
imported supply water supply to the coastal plain during the past 10 
years, over 50 percent of the total has come from the Colorado River.
    California's basic annual mainstream apportionment of Colorado 
River water is 4.4 million acre-feet (maf), whereas its use of Colorado 
River water has recently ranged from 4.5 to 5.2 maf per year. The 
entire State has benefitted both directly and indirectly from 
California's ability under the existing ``Law of the River'', to obtain 
water above its basic mainstream apportionment. In 1991 and 1992, as 
California faced its fifth and sixth consecutive years of severe 
drought, while other water sources were curtailed, entities in 
California were able to divert all of the water that they requested or 
could transport from the Colorado River to meet the needs within their 
service areas. Had MWD's water supply from the Colorado River been 
limited, significantly higher levels of mandatory water rationing would 
have been required in portions of Los Angeles, Orange, Riverside, San 
Bernardino, San Diego and Ventura Counties served by MWD. Such 
rationing would have resulted in significant economic impacts to the 
region. In the future, if MWD's Colorado River water supply were to be 
significantly reduced, additional pressure would be placed on the State 
Water Project and related water systems to meet the water supply 
demands within MWD's service area. This could result in significant 
impacts in the Central Valley of California and the San Francisco and 
San Jose areas.
    In the past, California was able to consumptively use water above 
its basic annual apportionment because the water use by both Arizona 
and Nevada were below their ``basic'' annual apportionments. Those 
states now use all, or nearly all, of their basic apportionments, 
effectively ending California's ability to use water above its basic 
apportionment of 4.4 maf, absent a surplus condition being declared by 
the Secretary of the Interior. This year, without a surplus condition 
being declared by the Secretary of the Interior, California's use of 
Colorado River water could have been limited to its 4.4 maf basic 
apportionment, some 700,000 acre-feet less than its current use of 
Colorado River water. Because agricultural districts in California hold 
the senior water rights, almost all of this reduction would have fallen 
on MWD and urban Southern California. A reduction in water supply of 
this magnitude could have huge consequences, not only on 17 million 
people residing on the coastal plain of Southern California, but on 
other regions of California as well.
    This year, because of the drought in California and the west, the 
State Water Contractors including the Metropolitan Water District of 
Southern California have received only 39 percent of their allocation 
from the State Water Project. With the prolonged drought, their 
allocation for 2002 is currently estimated to be 20 percent. With these 
reductions it is critical that MWD maintain a full Colorado River 
Aqueduct to continue to meet its water supply demands on the coastal 
plain.

California's Colorado River Water Use Plan
    Recognizing that urban Southern California could be without an 
assured water supply, the former Secretary of the Department of the 
Interior, Bruce Babbitt, and representatives of the other Colorado 
River Basin states in 1997 called upon California to develop a plan 
that addresses how Southern California intends to continue to meet its 
water supply needs when its use of Colorado River water is limited to 
its ``basic'' apportionment. In return for development and 
implementation of such a plan, the Secretary and representatives from 
the other Colorado River Basin states indicated their willingness to 
consider the adoption of surplus criteria that would assist California 
in meeting its Colorado River water supply needs for an interim period 
while California implements elements of its plan. With California's 
plan and more optimal surplus criteria for operating the Colorado River 
reservoir system, the probability of more than 7.5 maf of water being 
available annually for use by California and the other Lower Basin 
states is enhanced.
    The first draft of what is now being called California's Colorado 
River Water Use Plan (Plan) was released by the Colorado River Board in 
December of 1997. A revised, more comprehensive draft was released by 
the Board on May 11, 2000. The draft Plan calls for a number of 
programs to be implemented within California and in cooperation with 
the other Basin states that allow the water supply needs of Southern 
California to continue to be met from within its annual apportionment 
of Colorado River water.
    The overall purpose of the Plan is to provide California's Colorado 
River water users with a framework by which programs, projects, and 
other activities will be coordinated and cooperatively implemented, 
thus allowing California to most effectively satisfy its annual water 
supply needs from within its annual apportionment of Colorado River 
water. This framework specifies how California will transition from its 
current use of water and live within its basic apportionment of 
Colorado River water as conditions on the River so dictate.
    The components of the Plan are broad in scope and deal with both 
water quantity and quality. It is intended to help bring certainty to 
all California Colorado River water right holders as to the reliability 
of their Colorado River supply so that they can plan, finance, and 
implement other required measures in a timely manner to fully meet 
their water supply and management needs. It is founded on interagency 
cooperation, and embraces regional approaches and consensus-based 
processes. It is intended to be fully consistent with the existing 
``Law of the River'' and to foster greater levels of interstate 
cooperation and coordination in addressing Colorado River matters of 
mutual interest.
    The Plan encompasses:
    <bullet> further quantification of California's rights and use of 
Colorado River water to facilitate the optimum use of California's 
Colorado River resources,
    <bullet> cooperative core water supply programs and voluntary 
transfers,
    <bullet> increased efficiencies in water conveyance and use,
    <bullet> water storage and conjunctive use programs to increase 
normal and dry year water supplies,
    <bullet> water exchanges and transfers,
    <bullet> administrative actions necessary for effective use and 
management of water supplies,
    <bullet> improved reservoir management and operations,
    <bullet> drought and surplus water management plans,
    <bullet> coordinated project operations for increased water supply 
yield,
    <bullet> groundwater management,
    <bullet> Colorado River salinity control and watershed protection, 
and
    <bullet> addressing environmental impacts
    The Plan will remain in draft form pending completion of the 
environmental reviews and the subsequent execution of agreements 
associated with the Plan, such as the proposed Quantification 
Settlement Agreement (QSA).

Time-Sensitive Actions
    Critical to successful implementation of California's Colorado 
River Water Use Plan and for California to continue to meet its 
Colorado River water supply needs from within it annual apportionment 
of Colorado River water are: 1) execution of the proposed QSA; 2) 
continued operation of the Colorado River System reservoirs under the 
Interim Surplus Guidelines; and 3) implementation of the proposed core 
water transfers.
    Water districts in California holding Colorado River water 
contracts have formulated the QSA to implement vital components of 
California's Colorado River Water Use Plan. The QSA further quantifies 
the districts' water entitlements and provides for the implementation 
of certain core water transfers, such as the IID/San Diego County Water 
Authority's transfer of up to 200,000 acre-feet of water per year, as 
well as facilitates other transfers, such as the proposed PVID/MWD's 
Land Management, Crop Rotation, and Water Supply Program. Although 
progress is being achieved to complete the required environmental 
documentation for the QSA, the process cannot be completed until issues 
involving the Salton Sea are resolved. When the Key Terms for 
Quantification Settlement were negotiated by the water districts, it 
was assumed that the process directed by the Salton Sea Reclamation Act 
of 1998 would have been completed and Congress would have made a 
determination as to the Sea's future. This has not happened and if it 
remains unresolved, it could bring about the demise of the QSA and the 
core water transfers that would bring needed water to residents on the 
coastal plain of Southern California.
    In an effort to address this Salton Sea dilemma, discussions among 
representatives from the State of California, the affected California 
agencies, the Bureau of Reclamation, the U.S. Fish and Wildlife 
Service, and the environmental community are occurring in an attempt to 
find a solution. Despite the efforts of the stakeholders, an 
administrative solution has not yet been identified and the solution 
may require federal legislation. However, through these discussions, it 
has become apparent by all parties that the proposed water transfers 
have a temporal effect of one to nine years on an already deteriorating 
Sea and that the Sea, in a period of seven to 22 years, will be 
incapable of supporting a fishery without reclamation, regardless of 
whether the transfers occur or not. It is also recognized that 
execution of the QSA is critical for the successful implementation of 
California's Colorado River Water Use Plan.
    The State of California has placed a high priority on 
implementation of California's Colorado River Water Use Plan and the 
associated QSA. The State Legislature has appropriated $235 million to 
assist with implementation of the Plan; $200 million for the concrete 
lining of portions of the All-American and Coachella Canals and $35 
million for ground water storage and retrieval projects near MWD's 
Colorado River Aqueduct. The Final EIS/EIRs for both the All-American 
and Coachella Canal lining projects have been completed and the Funding 
Agreement between the State of California and MWD for the Coachella 
Canal has been executed. The Funding Agreement between the State of 
California and MWD for the Hayfield Ground Water Storage and Retrieval 
Project has also been executed.
    To address outstanding issues at the State level that may impede 
successful implementation of California's Colorado River Water Use Plan 
and the associated QSA, a broad-based group of stakeholders has been 
formed. This Group, chaired by Ms. Mary Nichols, Secretary for 
California's Resources Agency, is addressing issues related to the 
Salton Sea, the California Endangered Species Act, and the Fully 
Protected Species provisions in the California Fish and Game Code. 
State legislative hearing have been held on November 7, 2001and 
December 5, 2001, to discuss solutions to these issues. It is 
anticipated that State legislation addressing these issues will be 
introduced in January 2002 with an urgency provision to permit the 
legislation to become effective in 2002.
    Representatives of the seven Colorado River Basin states have 
supported implementation of California's Colorado River Water Use Plan 
through development of the Interim Surplus Guidelines for operation of 
the Colorado River System reservoirs. These Guidelines were a product 
of negotiations among representatives of the seven Colorado River Basin 
states and were submitted to the Bureau of Reclamation for its 
consideration. They provide California with the means, over 15 a year 
period, when coupled with other elements of California's Colorado River 
Water Use Plan, to transition from its present use of Colorado River 
water to being able to meet its water supply needs from within its 
basic apportionment of 4.4 maf. They also provide the other Basin 
states with certain protections and assurances that California will 
perform by establishing a series of milestones. The first such 
milestone occurs on December 31, 2002. If the QSA is not executed by 
that date, the Interim Surplus Guidelines face suspension and very 
conservative reservoir operating criteria, in terms of delivering 
surplus water to California and the other Lower Basin states, will take 
effect. Under such criteria and with the low runoff conditions in the 
Colorado River Basin the past two years, the probability that surplus 
water will be available for use in California in 2003 is highly 
improbable.

Conclusions
    The Colorado River plays a very important role in maintaining a 
stable water supply picture for not only Southern California, but for 
the State as a whole. Implementation of California's Colorado River 
Water Use Plan and the associated QSA and core water transfers are a 
priority within California and a prerequisite to meeting Southern 
California's water supply needs. If the QSA is not executed by December 
31, 2002, the Interim Surplus Guidelines face suspension. That 
suspension would result in a loss of about 700,000 acre-feet of water 
to the coastal plain of Southern California as soon as 2003. Such a 
large water shortage could result in severe economic impacts that would 
be felt throughout California and the southwest.
    Thank-you for providing me the opportunity to testify before this 
Subcommittee. Working together, we can make a difference.
                                 ______
                                 
    Mr. Calvert. Appreciate your testimony, Mr. Zimmerman.
    I want to apologize to Ms. Napolitano and Ms. Bono. I 
understand they had opening statements, and so at this time we 
would recognize Ms. Napolitano for her opening statement and 
then Mrs. Bono, and then we will have some questions.
    Ms. Napolitano.

    STATEMENT OF HON. GRACE NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Napolitano. Thank you, Mr. Chair, and I will make mine 
very brief. Coming from southern California, you understand the 
need for us to be forever vigilant, which southern California 
itself has worked tremendously on meeting a lot of the 
challenges, and you talk about municipal users and some of my 
water companies. And so to those that would continue to tell us 
in California that we are not living up to our agreement to try 
to conserve, to try reduce the usage, the fact that we have 
some of the best methodology that has been developed in 
southern California for recycled water and other conservation 
issues, I would beg them to consider that we cannot stop the 
flow of people coming to live in southern California. Because 
it has been suggested at one time or another by some former 
colleagues in the State that we should stop the building and 
the attractiveness to people from other states. As you all 
know, we do have that, unfortunately, or fortunately, because 
they have been a boon to our economy.
    I would say, though, that while California continues on the 
road to try to meet those obligations, that we get all the 
assistance we can so that we are able to meet the 2016 four by 
four plan. Considering all the other things that we have, and 
one of the things that I certainly want to pose a question to 
the Bureau of Reclamation and Department of Interior is if we 
are not able to meet the deadline, December 31 of next year, 
for the QSA, can we postpone or, if the attempt has been made 
to meet that, would there be some assurance that we won't be 
penalized?
    Certainly, California cannot afford the immediate reduction 
by that amount of water, and understanding that our economy 
reaches out to the neighboring states so that if we suffer so 
do the rest of the other states around us. And I certainly have 
those questions in mind, would certainly love to hear what some 
of the answers would be. Being fair, being, yes, OK, we are 
attempting to reduce it. I know my munis have. And many others, 
especially in the San Diego area, I know they have. They have 
gone through tremendous conservation and other kind of save the 
water, if you will, programs. So I look forward to hearing what 
some of the answers can be. Thank you, Mr. Chair.
    Mr. Calvert. Thank you.
    Mrs. Bono.

STATEMENT OF HON. MARY BONO, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Ms. Bono. Thank you, Mr. Chairman. I, first of all, want to 
thank you for your leadership on these issues and being such a 
great friend to the Salton Sea. I am happy to submit my 
statement for the record, if that is all right with you, and 
move ahead to the questions when you are ready.
    [The prepared statement of Ms. Bono follows:]

Statement of The Honorable Mary Bono, a Representative in Congress from 
                        the State of California

    Thank you for holding this important hearing on the implementation 
of the California plan for the Colorado River.
    All of us agree that California must take meaningful steps towards 
reducing its usage on Colorado River water. The Quantification 
Settlement Agreement is the key component to do just this. A 
combination of conservation efforts and water transfers will go a long 
way towards meeting this mandate.
    However, as we go about this process, I believe we cannot overlook 
the environmental impact certain aspects of the QSA will have on the 
Salton Sea. Too often, California's fractious history of water politics 
has forsaken long term stability for short term gains. One need only 
look to Owen's Valley to see how the lack of planning can lead to 
costly financial and health consequences which we are struggling with 
today. Therefore, while I am well aware of the ramifications of NOT 
implementing the QSA, I also believe there are unintended impacts from 
implementing this agreement without considering some mitigation 
measures.
    One possible casualty in the full implementation of the QSA is the 
Salton Sea. Rest assured that my intentions in bringing this to the 
committee's attention do not have as much to do with maintaining the 
Sea's current level or formation, but rather is focused on securing the 
overall health and quality of life of the human population in the 
surrounding area of the Coachella and Imperial Valleys.
    This summer, the stench from the Salton Sea reached out about a 
hundred miles. I have not been assured that the impacts of the QSA, 
which will have a dramatic impact on the Sea, will not cause 
considerable harm to the air quality in this region.
    While I support and understand the needs of urban communities in 
Southern California to receive water, I cannot overlook the needs of 
the constituents of the Coachella Valley who must live in these 
conditions and whose livelihoods depend on a tourist industry so vital 
to our community. I cannot imagine anyone who would want to live or 
vacation in an area which is subject to air pollution of the magnitude 
we suffered this past summer. Therefore, my concerns extend far beyond 
the harm water transfers may have on just the eco-system.
    I am very appreciative of a general consensus to authorize $60 
million of federal funding for the Salton Sea. These Congressional 
monies will help address a variety of environmental needs. Still, 
without confronting the dilemma of the Sea losing a significant amount 
of water, I believe we have not dealt with the most crucial issue at 
hand. It is unwise to delay the resolution of this problem for a later 
date when we have the responsibility to address it now.
    Rest assured that I believe we can move ahead with water transfers 
and successfully restore the Salton Sea. There are several proposals 
out there worthy of our consideration and it is my hope that we can 
take the time to actively review and debate them.
    Again, Mr. Chairman, thank you for holding this hearing and for 
allowing me to attend. I look forward to working with you on this 
important issue.
                                 ______
                                 
    Mr. Calvert. You are a very wise woman. Thank you.
    I want to thank all the witnesses for your excellent 
testimony, and I guess if there is any word that would come out 
of all of this is the word, ``urgency,'' because we are bumping 
up against a deadline 1 year from today on the Quantification 
Settlement Agreement. And, obviously, we have heard of dire 
consequences if in fact we are not able to ratify this 
agreement by December of 2002. And so since we have the 
gentleman who will probably dole out those dire consequences, I 
thought you might want to comment on that, Secretary Raley. How 
important is it that we finish this agreement, and what are the 
consequences?
    Mr. Raley. Mr. Chairman, this matter of the highest 
importance to the Secretary. The Secretary is acutely aware of 
her responsibilities as the water master in the lower river. 
The Secretary will enforce the decree in Arizona v. California, 
and the Secretary will stay on the course for the California 
Plan as put forth in the plan, the Interim Surplus Criteria and 
the implementation agreement. Should that outcome not come to 
pass, the Secretary will have to use all means at her disposal 
to ensure that she is in compliance with the Law of the River.
    Mr. Calvert. That is a pretty direct answer. It seems that 
from the testimony, obviously, one issue that certainly Mrs. 
Bono and I and others have been living with for some number of 
years is the Salton Sea, and it is a incredibly complex 
problem, and how we are going to resolve that is still open. 
And that is the problem. We have 1 year, and we had some 
difficulties working with the Department of Interior coming up 
with a preferred solution, as you are aware, and that was put 
off for some time. And we are really not quite there yet. Do 
you have any comment about that, Mr. Raley?
    Mr. Raley. Mr. Chairman, the alternatives will be out in 
draft form by the Bureau of Reclamation shortly, and the Bureau 
of Reclamation is also going through a public process, 
including an intensive public process in the Imperial Valley. 
And we will be on track to meet the requirements of the act 
regarding the Salton Sea.
    Mr. Calvert. Now, when you mention options, are you going 
to have a preferred option? I mean when you present those 
various options, are you going to present one that you prefer 
over the others?
    Mr. Raley. Not having studied the report nor consulted with 
the Secretary on this--and I want everyone to understand she 
takes a personal interest in this matter, in all matters on the 
Colorado River, so we talk about it frequently--I cannot commit 
to a specific answer. However, I will be blunt with you, Mr. 
Chairman, and members of the Committee, as I will always try to 
be, and suggest that it is very likely that what the Department 
will do is to transfer that report with as full of discussion 
of the alternatives as possible to Congress and yield to the 
greater wisdom of the Congress, given that Congress is the one 
that passes the budget, and the House in particular, as to 
which one it chooses to select. But I could surprise you.
    Mr. Calvert. You are going to punt it back over to us.
    Mr. Raley. Yes, sir. Well, if I may, Mr. Chairman?
    Mr. Calvert. Yes.
    Mr. Raley. I meant what I said very seriously. In terms of 
we all know that whatever the solution to the Salton Sea is, 
and there will be a solution, that it is going to ultimately be 
driven by funds. And we recognize the role of the House of 
Representatives, and Congress in particular and Congress in 
general, in terms of passing the budget.
    Mr. Calvert. Well, it is funds and, as you are aware, 
water. We have a salinity issue in the sea, and make-up water 
is the terminology that has been used by some. And whether or 
not that has been official use of water, whether we can do 
that, that is another subject. But we have to resolve that in 1 
year, and so in order for us to move on with these water 
transfers, as I recognize and I think everyone on this 
recognizes, is an ongoing reality in California, not just in 
the Imperial County, and we will certainly probably have 
transfers in other parts of the State of California as part of 
the water solution--and I emphasize part of the water solution. 
I know recognize Mrs. Napolitano.
    Ms. Napolitano. How much time did you say we have?
    Mr. Calvert. Five minutes for--well, we will just go back 
and forth.
    Ms. Napolitano. Per person? I have a lot of questions, Mr. 
Chairman. Thank you for the time. You are saying that the 
Secretary has indicated she is going to follow the letter of 
the Law of the River if the QSA is not met by next December, 
correct?
    Mr. Raley. The Secretary will stay the course in the 
present agreements if those are not--
    Ms. Napolitano. That is following the letter of the law.
    Mr. Raley. And if the outcome, the far preferable outcome 
that is envisioned by that collection of agreements can't be 
achieved, she will follow the Law of the River.
    Ms. Napolitano. OK. Now, what would you think Congress must 
do to carry out the QSA and help California meet the goal? If 
we are saying, ``California, without exception, you must meet 
it,`` but how can you help us meet it?
    Mr. Raley. Well, first of all, in terms of how the 
Department can help, I can tell you that at the highest levels 
in the Department, starting with the Secretary and within her 
personal staff, we are treating the deadlines with respect to 
the California Plan and the Quantification Settlement Agreement 
as being now. We have asked the agencies, primarily the Bureau 
of Reclamation and the Fish and Wildlife Service, to consider 
the deadlines as being now, and they have done so. In fact, 
tonight I will be meeting with other members of the Federal 
family to make sure that we do our best to have one voice 
within the Federal agencies, and I have told the nominee for 
Assistant Secretary for Fish and Wildlife and Parks from your 
great State of California that if he is confirmed by the 
Senate, I have asked for some of his time 5 minutes after he is 
sworn in to talk about this very important issue. So we are 
committed to finding a way through the Federal side of the 
equation.
    Now, in my remarks, you may have noticed a distinct absence 
of detail with respect to how California implements certain 
aspects of the overall plan, notably how the water rights 
transfers are structured, how the water actually ends up to the 
intended beneficiaries. Our view of that is that to the maximum 
extent possible we would like for the California parties to 
figure out that between themselves. And we do that because they 
are the ones with the greatest incentive to make this work.
    In response to your question of what Congress can do, we 
have said publicly that we do not want to see any option off 
the table. From an administrative standpoint, we are working 
hard on a Section 10 solution to the issues associated with the 
Salton Sea. We are prepared to consider a Section 7 solution 
for purposes of addressing Federal ESA laws--Federal ESA needs, 
understanding that that is not preferred, because it doesn't 
provide the cleanest way for California to meet the 
requirements of its California Endangered Species Act and Fully 
Protected Species Act. It may be that Congress will have to act 
with respect to the implementation of the California Plan and 
its compliance with the Endangered Species Act. We do not know 
yet.
    Ms. Napolitano. Then there is another question that this 
may not address, and that is the issue of salinity on the 
Colorado, where most of the lands, I would say a large portion, 
are Federal lands adding to the salinity of the river. What 
does the Department of Interior intend to do to help reduce 
that so the costs then borne by the agencies to clean the water 
could then be used to address the issue of cutting down on the 
water usage?
    Mr. Raley. Congresswoman, I just recently, as of this 
morning on the plane, reviewed some documents on that, and the 
point that they made was that the Bureau of Land Management 
within the Department of the Interior plays a key role, and I 
do not know if the Assistant Secretary has been confirmed. She 
had not when I left the office last week. That is an issue that 
I intend to raise with her and with the BLM Director as soon as 
they are in place and have found their offices, because I well 
understand the importance of the salinity issue to the entire 
Basin.
    Right now, my understanding is is that the Upper Basin is 
delivering water that is far in excess of the requirements, if 
you will, of the structure of the salinity compliance on the 
Colorado River, but that the economic consequences of treating 
at the using end as opposed to avoiding salinity contributions 
at the contributing end, it is perhaps a far better investment 
to do that, and I can promise you that we will be working with 
you and other stakeholders in the Lower Basin to figure out how 
to do that most effectively.
    Ms. Napolitano. And I will take that as a very good yes to 
putting this as a priority.
    Mr. Raley. Yes, absolutely.
    Ms. Napolitano. Thank you. The other issue would be on Moab 
and the danger of having a contaminated uranium tailings mine 
effluent hitting the Colorado River and its effect on the water 
users, and that would include all the Basin states. And how are 
the agencies going to address it by allowing us to move the 
pile, which I think we are having a hearing coming up pretty 
soon on that. And I think the State has come up with some 
findings which are generally no findings. It is just a rehash 
of apparently what has been studied before. And I think it is 
going to dump it back on the lap of Congress. To me, if 
anything were to happen, then forget us having portable water 
or at least adding cost to be able to clean that water from 
contaminants. Is anything being done or are you adding that to 
your mix?
    Mr. Raley. Congresswoman, I will not pretend. Since I have 
come on board, I have been so fully consumed by Clamoth, Bay 
Delta, the California Plan, the Mexican Delta and some other 
states, I am aware of that issue, but I do not know what the 
current state of play is. I will find out and we will get back 
to you.
    Ms. Napolitano. I appreciate it. Well, there is a--I can 
give you a little bit of a thumbnail sketch, but I won't do 
that now; I will do it privately. That is a great concern to 
all of us, but I certainly look forward to working with you and 
your staff precisely on the issues that affect our communities 
in southern California, since we utilize some say 65 percent of 
the water. I was under the impression it was a third, but 
nevertheless, that is an important part of our economy, and I 
certainly want to be sure that we work with the agencies. Thank 
you, Mr. Chair.
    Mr. Calvert. Great. We will have several rounds of 
questions. Mrs. Bono?
    Ms. Bono. Thank you, Mr. Chairman, and I appreciate your 
letting me participate today even though I am not a member of 
your Subcommittee. I can't help but think as I sit here the 
Salton Sea and the plan, QSA, all of this, I kind of liken it 
to open heart surgery. And open heart surgery is a very 
wonderful thing, but it leaves a scar. And everything is right 
about open heart surgery. Many lives have been saved and 
qualities of life have been improved, but there is still a huge 
scar. And the scar in this is going to be the Salton Sea, and 
this is my fear.
    And I believe people have a misunderstanding about my 
passion for the Salton Sea. And I believe I read in print Ms. 
Stapleton saying that if it weren't my late husband's passion, 
that it wouldn't be my passion either, and I disagree with that 
statement. I care as every Member of Congress who has cared 
about the Salton Sea and what happens there, but I don't 
believe there has been a thorough understanding of where the 
Salton Sea ought to go and what it ought to be, and does it 
necessarily need to be at the same level it is at now. I don't 
believe we have those answers yet, but it has been my concern 
and my hope that as we look at a $500 million increase, as 
suggested by the Salton Sea Authority, at least a $500 million 
increase in the solution to the Salton Sea, that we could 
hopefully address a lot of the consequences now that we know 
are going to occur. We only have to look back 100 years to 
Owen's Valley to look at what happened there to know that these 
things are going to happen in the Coachella Valley.
    Nobody has talked about nor addressed air quality. Mr. 
Secretary, I would love to hear your thoughts on air quality 
surrounding the Salton Sea after these water transfers go 
through, and if there isn't anything we ought to be doing now 
so we are not revisiting and putting sprinkler systems in in 
the future as they are now in Owen's Valley. Have you looked at 
air quality concerning the transfers and what the impact will 
be for the residents of Coachella Valley?
    Mr. Raley. Congresswoman, your letter to the Secretary very 
effectively raised that to both her attention and to mine. And 
since then I have seen additional information so I would 
characterize my knowledge on that as being limited but growing. 
I am also, however, either blessed or cursed, I am not sure 
which, just being in the Department of Interior. And as you 
know, air quality is a matter primarily for the states and the 
Environmental Protection Agency. And while I have met with some 
of the EPA management that work for Governor Whitman, this is 
not something I have had an opportunity to discuss with him.
    Ms. Bono. OK. So we don't know is your answer. Ms. 
Stapleton, to you as well. And, second, actually to either of 
you, to tag onto that, can you just tell me who would be liable 
for air quality issues when the people of Coachella Valley--
right now we live through, I am guessing, 12, 15 days of, I 
hate to call it a stench, but I don't know a better word for 
it. It is horrible, and I know you don't live there, and you 
certainly don't, so it is a stench. It is a sickening stench. 
So if we now have this order twice as often, three times as 
often, still we don't have those answers. So who will be 
responsible for that?
    Ms. Stapleton. A couple things. No. 1 is mitigation, the 
mitigation issue relates to the water agencies and the water 
transfer as opposed to a restoration issue or an existing 
condition. Related to the dust storm issue, actually that is 
part of the environmental review process. My understanding is 
that the research that has been done on that element indicates 
that dust storms related to the receding of the sea are highly 
unlikely because of the salt crust as well as the composition 
of the soil that is underneath the salt itself.
    Ms. Bono. Excuse me for 1 second. I cannot believe that. 
And I would love for you to send that to me. So you are saying 
that you are saying that this is highly unlikely that there 
will be an increased exposure to airborne particulate.
    Ms. Stapleton. Right.
    Ms. Bono. Erol Sea, Owen's Valley, these are not precedents 
that we can look to, but the Salton Sea is different.
    Ms. Stapleton. Right, that it is different and there has 
been analyses. And, absolutely, that is part of the 
environmental review process. They must look at air quality 
issues related to it. And what I understand is coming out of 
that is that based upon the analysis of the soil composition, 
the particle size, the salt crust, composition of the water of 
the Salton Sea, it is dramatically different than--
    Ms. Bono. Does that equal stench? Is that scientific word 
for--is that--then you are also saying you are confident the 
stench won't be dramatically worse?
    Ms. Stapleton. I do not know related to the odor issues 
around the Salton Sea and if that would improve, decrease or 
remain the same, but I do know that the air quality has to be a 
component of the environmental review for both the EIR and the 
EIS.
    Ms. Bono. So we still don't know. I think my 5 minutes--I 
think I am at about 30 seconds so far.
    Mr. Calvert. We can keep rotating.
    Ms. Bono. It is Las Vegas. It is 24 hours. The lights are 
always on. Mr. Graff, in your testimony, you talked about--I 
scribbled it down up here somewhere, excuse me 1 second. You 
talked about the Pacific Institute solution to dike off 
portions of the sea and to save those that are environmentally 
sensitive areas and let the rest die or go. And to me that is 
sort of, again, another medical analogy. You want to amputate 
your elbow to save your hand. We are going to let the bulk of 
the sea die, and I don't quite understand that, and I would 
love to hear your thoughts on that proposal.
    Mr. Graff. Well, I would answer it in two ways. First, I 
don't think it is death. It is a different environment. Hyper-
saline environments elsewhere, Great Salt Lake and Mona Lake, 
to take two examples, are not dead; they are different. But I 
think the real answer is that there are limited resources, 
particularly financial resources at all levels--Federal, state 
and regional--to address these issues. And, realistically, we 
have had, I don't know, many decades of not addressing the 
Salton Sea as its conditions have degraded, and I think the 
Pacific Institute ought to be commended for proposing a 
solution that address many of the ongoing issues and projected 
further degradation in ways that potentially would bring 
sustainable solutions for many of those resources. Admittedly, 
there are problems. I don't think there are any perfect 
solutions out there, but I haven't seen any other proposals 
that meet as many of the environmental requirements as the 
Pacific Institute has put out at a reasonable cost.
    Ms. Bono. But isn't that sort of assuming that it would 
meet environmental requirements? This is a hypothesis, but it 
hasn't been tried. Brown pelicans are going to know the 
difference between--that the good areas of the sea aren't going 
to have botulism, that they will avoid the bad parts and go to 
the good parts and put up little signs that say, ``Brown 
pelicans come here and not''--I am just having fun with this.
    Mr. Graff. It is a good--you know, I am not an 
ornithologist, but let me tackle that one. I think the idea, 
anyway, is that with water quality treatment for the inflows to 
the areas that would be diked off and protected, there would be 
less in the way of water quality degradation and dying fish 
than we have today. The birds are going to go where the fish 
are. If there are no fish in the middle of the sea, they are 
not going to go there. Maybe other birds will go there if there 
is a brine fly or brine shrimp kind of environment, I don't 
know. But I think at least the proposal is to address it in 
ways that are good for the birds, I mean better than existing 
conditions in some ways.
    Ms. Bono. Thank you. And, Mr. Chairman, my time is winding 
down. I support the plan, and I think that those of you who 
have been curious about my position it is just been my hope we 
could do as much proactively as we could on this to answer some 
of these questions. And, hopefully, if we are going to spend 
$500 million more on the future at least, hopefully we can get 
a better bang for our buck by doing some of these things now. 
It is just my hope that at some point in time somebody, and I 
hope it would be the Administration, will look at this area and 
recognize that it is a symbiotic relationship and that we are 
all dependent on each other for it. And as water quality goes, 
so will air quality go.
    And until somebody has the nerve to stand up and tackle the 
hard issues, and we all know that there are some very, very 
difficult issues here. The issue of--and I am not endorsing 
this proposal at all, but nobody has mentioned fallowing here, 
and at some point in time somebody is going to have to have the 
nerve to stand up and make these difficult choices. And in my 
view, the Administration is going to really have to step up to 
the plate, and I look forward to hosting the Secretary out on 
an air boat in the Salton Sea in the very near future. Thank 
you, Mr. Chairman.
    Mr. Calvert. We will put her up front in the air boat to 
get a close experience.
    Mr. Calvert. I don't want this to be a Salton Sea hearing, 
but obviously in order for us to get where we need to go we 
have to deal with this issue. And it appears that it is just 
not California's problem, because in order for us to get where 
we need to go we are going to have to get also the Upper Basin 
states to assist with support with the congressional delegation 
from the Upper Basin states in regards to the problem with the 
Salton Sea. Sometime that may be an educational process for 
members from California, but I was going to ask Mr. Anderson, 
do you see that the members in the Upper Basin states 
understanding the relationship with the Salton Sea and the QSA 
and how we have to resolve some of these issues to get where we 
need to go?
    Mr. Anderson. It is hard for me to talk about all the other 
Upper Basin states and their understanding. My impression is 
that they do understand that there is a direct tie to the 
Salton Sea and the success of this plan, and I think that is 
why, as I understand, all the Upper Basin states wrote letters 
in support of H.R. 2764, whatever it was, in support of that in 
assistance to try and come to a solution on--one of the issues 
was the Salton Sea.
    And I would only--you know, I live next to the largest salt 
sea in the country, as much salt here, of course, in the Salton 
Sea, and we do not have the same type of environment that you 
have in the Salton Sea. I would extend an invitation to this 
Committee, especially to Representative Bono, to come out, and 
I would be happy to make arrangements to take any of you out 
and give you a tour of the Great Salt Lake and the bird refuges 
that are associated with it.
    I think you might find it extremely interesting to see the 
type of at least wildlife that exists at the bird refuge and 
U.S. fish, one of the largest and one of the oldest bird 
refuges in the United States. You might find it extremely 
interesting to see what happens, and there are literally tens 
of thousands of white pelicans that exist on the Great Salt 
Lake. I have gone out there in the middle of June in air boats 
and just looked out in the distance. It absolutely looks like 
it just snowed in somebody plowed a snowplow trail of snow 
bank, a snow bank out in the distance where the pelicans are 
at. And there is, like I said, just literally tens of 
thousands. They stay there for the entire summer.
    We have botulism problems that exist there, we have smell 
that exists there, but, again, I think it might help understand 
what happens if the Salton Sea gets saltier, which I, 
unfortunately, believe is going to be the case over time and 
see what some of your options might be to look and some of the 
refuges that we have created around the Great--again, I would 
be happy to make those arrangements for anybody that would like 
to come out. Took a group of folks from California out 
recently, let them look at it, and I think they were quite 
surprised at what we do out there.
    Mr. Calvert. And that was brought up--I am sure we will 
take advantage of that opportunity and get up to the Great Salt 
Lake and take a look at that.
    One comment on the issue of fugitive dust, and it brings 
back a memory when I was a young lad back a long time ago, 
working for then the Congressman for Riverside County, Victor 
V. Veesey. And the biggest issue in the Coachella Valley 1 year 
was fugitive dust. I just remember that issue. That was before 
they developed this--Mary wasn't born yet--that is before they 
developed the golf courses and the great developments in that 
area that stopped breaking that up. So I suspect, though--I 
have seen dust when the sea has shrunk, so I suspect that is a 
problem, and it is going to have to be dealt with, and it is 
something that we will have to resolve in this next year. And I 
am certainly at the disposal of the Administration with my 
colleagues and with all of you to help work this thing out in 
the next year, because we are going to have to do that.
    An issue that also came up on Mr. Hansen's language, on the 
4.4, and statutorily putting that into law. Mr. Hansen wanted 
to send a message; he sent it. I think everybody heard that is 
that basically, I am sure if Jim was here would way, ``We want 
to send a message to California to get our hands off of 
everybody else's water.'' But saying that, Mr. Caan is correct, 
we are going to have to work out some language, changes. I 
think there was a message there, but we will work that out. 
There is a number of issues we would have to work out in this 
legislation before it is brought to the floor, which we all 
recognize that we have to do. So I wouldn't get too excited 
about that.
    Mr. Zimmerman, can you briefly explain--let us talk about 
some positive things here. We are going to get this--I am an 
optimist by nature. We will set the Salton Sea down for a 
second and talk about something else. Can you briefly explain 
the progress to date in attempting to implement the 
California's Colorado River Water Use Plan in the U.S.A.? What 
progress have we made so far.
     OK. We have got to wait 5 minutes here while they change 
the tapes.
    OK. Mr. Zimmerman.
    Mr. Zimmerman. Mr. Chairman, as I indicated, there is 
significant progress that has been made. We have the key term 
for the Quantification Settlement Agreement. That kind of sets 
a road map of some of the programs that need to be implemented. 
One of the primary elements of the core water transfers is a 
1988 MDW/IID conservation agreement, where a 110,000 acre feet 
of water have been transferred to the coastal plain of southern 
California.
    Also, as I indicated, there is--$235 million have been 
provided by the State legislature to fund the lining of the 
canals--or $200 million of it for the lining of the canals, $35 
million for the conjunctive use. As I indicated, the funding 
agreements between the State of California and the Metropolitan 
Water District have been executed for the lining of the 
Coachella Canal as well as the $35 million is cost shared with 
the Metropolitan Water District to implement the Hayfield 
Groundwater Storage and Retrieval Program. So progress is being 
made there.
    Also, the Metropolitan Water District and the Palo Verde 
Irrigation District have key terms for a Land Management Crop 
Rotation Water Supply Program, which would provide Metropolitan 
Water District the ability in dry years to obtain water through 
a fallowing program and move that water from the Palo Verde 
Irrigation District to the Metropolitan Water District.
    Mr. Calvert. That was a very good agreement, by the way, 
and I congratulate Metropolitan for executing that agreement 
and moving that forward. So those types of solutions are going 
to be more than necessary in the future. Mrs. Napolitano. I am 
going to recognize her, and I am going to go back and forth.
    Ms. Napolitano. Thank you, Mr. Chair. I was just 
blackberrying you can I get two more questions in, so if you 
get that, that is the message.
    [Laughter.]
    Mr. Calvert. Oh.
    Ms. Napolitano. A couple of things that kind of rattled 
around after listening to some of the questions and some of the 
notes that I had, and one of them is to you, Mr. Raley. And 
that is, is there any chance of being able to allow effective 
interstate water transfers when it comes time for us to be able 
to find additional water? I am under the impression they are 
not allowed now. There had been an offer by an entity, or at 
least not an offer, but a statement made at one time that they 
had excess water, and the MWD was interested at the time. And I 
am just wondering should something of that nature come up, 
happened to be somebody out of Utah, and would that be 
applicable?
    Mr. Raley. Congresswoman, if any--and I suspect you or your 
staff have done a lexus nexus search, you will find that in my 
prior life I was adamantly opposed to any such interbasin 
transfers, between the Upper and Lower Basin. That opposition 
was based not only on the interests of the parties I 
represented at the time, but on my personal conclusion that it 
was not permissible under the 1922 compact.
    However, I have not addressed that issue specifically with 
the Secretary since we both joined Interior. I think it highly 
unlikely that we would embark on any such effort, because we 
want to focus on things that lead us other than to court, and I 
am virtually certain that an interbasin transfer proposal will 
trigger litigation decades, if not longer, in the United States 
Supreme Court, and we would rather focus on making progress 
than paying lawyers.
    Ms. Napolitano. I understand, and I agree. The idea, 
though, is if we are met with dire consequences, we need to 
take a look at other alternatives. That was one question. And 
what will be the effect--and this is also to Mr. Graff--the 
effect of the lining of the canals due to the replenishing of 
the aquifers?
    Mr. Raley. Congressman, which canals are you referring to, 
the All American canal?
    Ms. Napolitano. The one in California. We are lining some 
of those canals to be able to not have the seepage and the loss 
of water, and those refurbished aquifers, which are used by 
farmers and urban users.
    Mr. Raley. It is the position of the Department of Interior 
that that water belongs to the United States, not the United 
States itself but it is allocated and it is for use in the 
United States under applicable Law of the River. And so in 
terms of who ends up with it--
    Ms. Napolitano. Explain.
    Mr. Raley. Well, some have suggested that because there 
have been unlined canals and that canal seepage has increased 
groundwater mound in the Republic of Mexico that the Republic 
of Mexico has somehow obtained rights to the continuation of 
unlined canals and the water that that produces for the 
groundwater mound.
    Ms. Napolitano. That is not my thrust.
    Mr. Raley. OK, I apologize.
    Ms. Napolitano. I am talking about--right. No, I am talking 
about in the areas where there is farmland and there is--well, 
your underground rivers, of course, are all over; it isn't just 
down in the southern part of the State. And while I can 
understand Mexico wanting additional water, they are 
withholding almost the same amount, actually more, water along 
the Texas border. Our farmers are suffering drought and not 
getting their fair share of water. So I am not too, how would I 
say, partial to even thinking about Mexico's problem right now. 
Our concern is in California.
    Mr. Raley. With respect to the canal lining within 
California, there have been a lot of innovative efforts, and I 
wish to commend California and its stakeholders. Both State 
agencies and the agencies that are here today and those that 
aren't here have made enormous strides from where I thought 
they were 15 years ago to where we stand today on the brink of 
an incredible success. It is only through the hard work of the 
California agencies and I have no doubt that California will 
continue to be able to find innovative ways to use any 
remaining seepage to the benefit of--seepage derived from 
California's allocation from the Colorado River to the benefit 
California, as it should.
    Ms. Napolitano. Well, my concern, though, has any review 
been done of the--any geological studies that indicate any 
detrimental effect on the current well users, for instance, 
because they draw the water from the aquifers?
    Mr. Raley. Congressman, I am not aware of any. I am not 
saying they aren't; it is not something--it is not a matter 
that has come to my attention.
    Ms. Napolitano. Do you say that is something that we need 
to look at? Because that will increase the farmers having to 
use actual above-ground water.
    Mr. Raley. I do not pretend to be an expert in the 
intricacies of California water law, and the best I can do is 
to promise to get back to you on that.
    Ms. Napolitano. OK. Thanks. Mr. Graff?
    Mr. Graff. Congresswoman, I think those problems are more 
prevalent in certain parts of the Central Valley and perhaps in 
urban southern California than they are either for the 
Coachella Canal lining--and Gerry Zimmerman can correct me on 
this if I am wrong--where the water that is seeping now goes to 
very saline groundwater basins that are basically unusable.
    In the case of the--I do want to comment, though, on the 
case of the All American Canal. I think there are very creative 
possibilities in terms of negotiating with various interests in 
Mexico to combine a number of issues of concern there and here.
    Ms. Napolitano. Thank you, Mr. Graff. I am not necessarily 
referring to the Salton Sea issue. I am referring to--
    Mr. Graff. No, I am talking about the All American Canal 
issue.
    Ms. Napolitano. Oh, OK.
    Mr. Graff. Where you are--I mean I--well, I--
    Ms. Napolitano. I am in Los Angeles.
    Mr. Graff. OK.
    Ms. Napolitano. Mr. Zimmerman, any thoughts on that?
    Mr. Zimmerman. Mr. Graff is right. We are lining the 
Coachella Canal and lining the All American Canal. The 
environmental compliance documents for both of those has been 
completed. I am not aware of any impact on farmers in the 
United States by lining either of those canals.
    Ms. Napolitano. But I am talking about California farmers.
    Mr. Zimmerman. Right. And within California's Colorado 
River Water Use Plan, we are focusing on California's source, 
the Colorado River, and not looking internally within southern 
California at projects and programs--
    Ms. Napolitano. I see.
    Mr. Zimmerman. --that each of the individual agencies may 
undertake. We are looking at just the supply coming from the 
Colorado River.
    Ms. Napolitano. OK. While it may not necessarily be tied 
into directly, it is tied into it indirectly, because I can 
tell you my municipal users have multiple wells, and they have 
been in existence for over 50, 80 years. Some of those wells 
have been shut down because of contamination, because they can 
no longer draw as much water out of the aquifers that they used 
to. And so they rely a lot more on the actual imported water. 
And so, consequently, there is a nexus there. Thank you, Mr. 
Chair.
    Mr. Calvert. Thank the gentlelady. I am going to let 
Bennett Raley escape, and I have a couple more questions, but 
he has a commitment. We appreciate your attending and look 
forward to working with you on a couple of little issues we 
have got to resolve here in the next year, some in the next 3 
months.
    Mr. Raley. Thank you, Mr. Chairman. I think that was a 
polite way of saying you are tired of my non-responsiveness 
responses, so I will leave. Thank you.
    [Laughter.]
    Mr. Calvert. No, you did very well. Have a great day.
    Mr. Graff, I have heard from you and other organizations 
from the environmental community that for years have been 
pushing for agriculture to urban water transfers as a means to 
avoid construction of new dams and canals. Do you agree that 
the QSA is in line with that goal?
    Mr. Graff. Yes.
    Mr. Calvert. That is a good answer. All right. If the QSA 
fails and if the special provisions of the ISG at the Interim 
Surplus Agreement are suspended, will the consequences be felt 
throughout California, as opposed just to the southern part of 
the State?
    Mr. Graff. Your Honor, there was a quote in the San 
Francisco Chronical to that effect yesterday, so I guess my 
answer to that is, yes, although--I suppose it is probably yes, 
because Assistant Secretary Raley was careful to say that 
whatever action the Secretary would take in respect of the 2003 
water year would be in accordance of the Law of the River, and 
there is at least some dispute as to what the Law of the River 
would provide in the event that the QSA is indeed not finally 
signed next December.
    Mr. Calvert. Going back to Salton Sea for a second, do 
environmental organizations, in general, support the 
restoration of the Salton Sea?
    Mr. Graff. I think all environmental organizations that I 
am familiar with are interested in restoration of Salton Sea 
values. When one says restoration of the Salton Sea, I think it 
maybe takes a little beyond that. It is unclear what sea would 
be restored. So I think there are differences of view as to 
whether we can keep the current sea even with all its problems 
or whether we have to address a changing environment, 
irrespective of whether the transfers are approved in all their 
glory or not.
    Mr. Calvert. A question for the gentleman from Nevada. I 
asked this same question with the Upper Basin states, and maybe 
you can kind of fill in for Arizona at the same time. 
Obviously, if we are having a problem with the implementation 
of the QSA a year from now, I am just curious from your 
perspective about--now that Bennett Raley has left I can ask 
this question--about extending the deadline beyond December of 
2002. I just thought I would get that on the table and ask.
    Mr. Caan. I would be happy to answer that. I think it might 
be presumptuous for me to speak for Arizona, but to the extent 
that they agree with what I say, I can speak for them. And if 
they don't agree with it, I decline to speak for them.
    I think that over the 10 years we were developing the 
Interim Surplus Criteria, we knew that the--we knew we were 
approaching the day when Nevada and Arizona would be reaching 
their full apportionment, entitlements and that eventually 
California would have to get back to the 4.4 million acre feet 
of their entitlement as well. And we thought it would be 
difficult to do that but not impossible. So in the development 
of the criteria what I think we all agreed, as the seven Basin 
states, was that it is going to be difficult but not impossible 
to get where California needs to go. And that is why we 
prepared what Maureen had referred to as a soft landing, which 
is a 15-year period within which to bring California down to 
the 4.4 million acre feet.
    It is important to note we are not specifically asking 
California to reduce its water consumption; what we are 
specifically saying is the reduction of the water consumption 
from the Colorado River to legal entitlement. I think given 
that we are at the very beginnings of the development of this 
program, we have just recently had the Interim Surplus Criteria 
signed, that we have been very innovative and creative 
solutions, I think looking at extensions or time extensions or 
changes at this point is probably premature. I think what we 
want to do is to retain the flexibility and creativity to meet 
the deadlines that have been so vigorously pursued and agreed 
to by the states.
    Mr. Calvert. In other words, you are open minded. I just 
bring that up because, as was pointed out by Mr. Zimmerman, 
there is a lot being done in order for us to wean ourselves 
from the Colorado River. It was mentioned the Palo Verde 
Valley, the Hayfield, et cetera, et cetera. There are other 
things going on in the State. And I would hope that you would 
keep open minded on that, because it seems that the Salton Sea 
issue is a very complex issue. We have been working on this for 
a number of years. I am hoping we can get this resolved 
relatively soon, but as long as you see good efforts going out 
there, I would hope that you be open minded to that. Mr. Graff?
    Mr. Graff. If I might just say one thing. I think the most 
salient part and best part of the surplus guidelines is the 
schedule of benchmark quantities for California agricultural 
diversions in that it provides a steady diminution of how much 
water the Secretary will deliver the agricultural sector in 
California over a prescribed number of years. And that affords 
California a lot of flexibility and creativity in trying to 
maintain as much as possible the full Colorado River aqueduct 
for the urban areas, while addressing the problems that 
diminishing quantities of water to the agricultural areas would 
bring.
    Mr. Calvert. Any further comments from the panel? Yes, Mr. 
Anderson?
    Mr. Anderson. I think from the standpoint of the majority 
of the states, the December 31 date is really a critical date 
and very important to, I would guess, five of the states. And I 
just want to point out that we have not received any report 
from California that they are not going to meet the deadline. 
The report is they will meet the deadline, they have never 
asked for an extension of time on that. I think the Record of 
Decision is pretty specific what the Secretary has to do, and 
if for some reason California is not going to meet the 
deadline, I think it behooves them to come to the Basin states 
and let us know and ask us if there is something we can work 
out.
    Mr. Calvert. We all, I think, want to see an agreement 
executed prior to December of 2002, but we have a lot of work 
to do. Any other comments? I want to thank the witnesses for 
attending and one last comment by--
    Ms. Napolitano. Just a question. What do you think, 
gentlemen and ma'am, you can do to help us reach the QSA? Any 
suggestions? I know I am not from the agency, but what do you 
suggest other than, well, coming to you and letting you know 
where they are at, where California is at?
    Mr. Anderson. What California has asked the Basin states to 
do is to support H.R. 2764, and we have all done that. As far 
as I know, that is all that we have been asked to do, and we 
have all stepped forth, gone to our congressional delegations 
and asked them to support that piece of legislation.
    Mr. Caan. I would echo Mr. Anderson's comments. As I said 
earlier, from Nevada's point of view, the implementation of 
these criteria is linked to our ability to continue our water 
supplies for the future extend and continue those. We have 
supported the criteria itself, the soft landing, supported the 
bills that have supported the development of projects to help 
California. We will continue to support those kind of efforts, 
and that is why as the seven states, at least the six other 
states, have worked toward the support of those elements needed 
to ensure California can meet the deadline that are in the 
criteria.
    Ms. Napolitano. Maybe I should ask Mr. Zimmerman what can 
these other entities do to help California meet the deadline?
    Mr. Zimmerman. Give up their water.
    [Laughter.]
    Ms. Napolitano. They are already giving us the water.
    Mr. Zimmerman. As I indicated in my testimony, you know, 
the critical date, and we in California believe that that is 
firm date, the December 31, 2002, what right now is standing in 
the way of being able to meet that date that is a major issue 
is the Salton Sea. And how we, you address the Salton Sea and 
in a timely manner hinges on the ability to meet that critical 
date of December 31, 2002. Within the State of California, 
Secretary Nichols, the secretary for the Resource Agency, is 
leading the discussions within California to look at the Salton 
Sea, the fully protected legislation within California and the 
issues that have been identified that have the potential of 
derailing of the execution of the agreement by the December 
deadline. So I guess I would encourage you to expedite whatever 
you can to assist California in addressing the Salton Sea 
issues.
    Mr. Calvert. Right. And by the way, from what Bennett said, 
they are going to have a number of preferred solutions, and I 
think we will have to coalesce behind one as soon as possible 
and move with whatever that may be as soon as possible as a 
solution to that problem. And hopefully that will be very soon.
    If there is no other comments, again, I want to thank you 
all for coming out today. It was very informative, and we are 
adjourned.
    [Whereupon, at 2:30 p.m., the Subcommittee was adjourned.]
    [Letters submitted for the record follow:]

    [GRAPHIC] [TIFF OMITTED] T6574.001
    
    [GRAPHIC] [TIFF OMITTED] T6574.002
    
    [GRAPHIC] [TIFF OMITTED] T6574.003
    
    [GRAPHIC] [TIFF OMITTED] T6574.004
    
    [GRAPHIC] [TIFF OMITTED] T6574.005
    
    [GRAPHIC] [TIFF OMITTED] T6574.006
    
    [GRAPHIC] [TIFF OMITTED] T6574.007
    
    [GRAPHIC] [TIFF OMITTED] T6574.008
    
    [GRAPHIC] [TIFF OMITTED] T6574.009
    
    [GRAPHIC] [TIFF OMITTED] T6574.010
    
    [GRAPHIC] [TIFF OMITTED] T6574.011
    

</pre></body></html>
